  United States Department of State
and the Broadcasting Board of Governors

Office of Inspector General




Semiannual Report
 to the Congress




  April 1 to September 30, 2001
                       Summary of OIG Accomplishments
             Financial Results:

             Questioned costs
                Issued during the reporting period                    $ 10,348,570
                Management decision during the reporting period       $          0
             Recommendations for funds to be put to better use
                Issued during the reporting period                    $           0
                Management decision during the reporting period       $           0
             Investigative recoveries                                 $    389,334

             Investigative Results:

             Cases opened                                                        23
             Cases closed                                                        43
             Judicial actions                                                    49
             Administrative actions                                               8
             Hotline and complaint activity                                     172

             Reports Issued:                                                    53




                          Requests for additional copies of this
                        publication should be addressed to:

                                 Office of Inspector General
                                 U.S. Department of State
                                 OIG/CPO, Room 810
                                 1700 North Moore Street
                                 Arlington, VA 22209




                   Department of State Publication 10911
                              Office of Inspector General
                              Released November 2001


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   83 .
                                      TABLE OF CONTENTS

        A MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
        EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
        CONGRESSIONAL ACTIVITIES AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

        DEPARTMENT OF STATE
          SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     19
          INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      21
          AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   41
          INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           53
          APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   61
          APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 62
          APPENDIX 3: Savings and More Effective Use of Resources
              Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  64
              Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     65
          Appendix 4: Resolution of Reports & Recommendations
              Previously Reported Significant Audit Recommendations . . . . . . . . . . . . .                                        66
              Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . .                                  67

        BROADCASTING BOARD OF GOVERNORS
          SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     73
          INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      73
          AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   74
          INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           78
          APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   79
          APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 79
          APPENDIX 3: Savings and More Effective Use of Resources
              TABLE 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    80
              TABLE 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       80

        LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
        INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82




84 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
  A MESSAGE FROM THE INSPECTOR GENERAL


I       am grateful to the United States Senate for confirming me this past summer
        as the new Inspector General for the United States Department of State
(Department) and the Broadcasting Board of Governors (BBG). I look forward to
working closely with members of both the Senate and the House for many years to
come as I discharge my important responsibilities. I am pleased to provide you with
this my first semiannual report to the Congress.

     Though I have been in this position for only a few months, I have already re-
structured my office, reordered priorities, and otherwise made changes better to
carry out my duties. Specifically, I have identified four strategic goals against which
I intend to review and monitor Department and BBG programs, activities, and
operations, namely:

 • The Department and BBG adequately protect the people, information, and
facilities under their control in the United States and abroad;

 • The Department and BBG effectively, efficiently, and economically advance the
foreign policy interests of the United States;

 • The Department and BBG have the necessary financial and support systems and
controls to meet legal and operational requirements; and

 • The Department and BBG are free of fraud, waste, abuse, and mismanagement.


In assessing the degree to which the Department and BBG succeed in meeting these
goals, the Office of Inspector General (OIG) performs three core functions.

    First, we inspect each of the approximately 260 embassies and consulates
throughout the world, as well as international broadcasting facilities and the various
domestic bureaus and offices of the Department and BBG.

    In addition to these management-focused inspections, we also conduct discrete,
specialized inspections focused on the degree to which our personnel, facilities, and
intelligence assets are protected from attack or compromise. Given the tragic events




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   1 .
       of September 11, the importance of this work is clearer than ever before, and we
       must redouble our efforts to carry it out. As the Congress passes more legislation
       and appropriates more money in this area, OIG must and will play a critically impor-
       tant oversight role, ensuring that the intent of the Congress is realized and that the
       money appropriated is well spent.

           Our second major responsibility is auditing Department and BBG programs,
       operations, and activities to ensure that they are, to the maximum extent possible,
       effective, efficient, and economical. And, we ferret out instances of fraud, waste,
       abuse, and mismanagement.

            The third major responsibility is investigating instances of fraud, waste, abuse,
       and mismanagement that may constitute either criminal or civil wrongdoing or a
       violation of Department or BBG regulations. Those instances involving crimes or
       civil fraud are referred to the Department of Justice for prosecution, and those
       involving violations of Department or BBG regulations are referred to the Depart-
       ment or BBG for administrative discipline.

           So as to focus most intensively on these three core statutory functions, I have
       redeployed OIG personnel, funds, and other resources, minimizing to the greatest
       possible extent all support functions. Among other things, I have disbanded unneces-
       sary support offices, and consolidated the other, essential ones into one administra-
       tive unit. The primary goal is to produce more and better inspection, audit, and
       investigative reports and to do so more quickly than ever before.

           To emphasize the fact that I am the Inspector General for BBG as well as the
       Department, I have created the position of Assistant Inspector General for Interna-
       tional Broadcasting. This unit, in collaboration with others in OIG, will continue our
       efforts better to serve the inspection, audit, and investigative needs of BBG.

           And, I have consolidated all internal OIG information support and all of      our
       external information technology oversight work into a new unit headed by a Chief
       Information Officer, who reports directly to me. The nature of our times, demands
       that we have the latest in information technology and that our systems are protected
       to the maximum possible extent against compromise.

           I welcome your ideas for ways that we can further improve our work. I welcome,
       too, your work requests and your invitations to testify about matters of importance
       to you. And, to the extent that your schedules permit, members of Congress and
       staffers are welcome to look in on the various teams that we have throughout the




2 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
world at any given time so as to get a sense of what we do and how in your judgment
we can do it better.

    Again, I am grateful for the Congressional support that I have received to date. I
look forward to working with you and your staffs in the years ahead.



                                                                  Clark Kent Ervin .




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   3 .
4 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                        EXECUTIVE SUMMARY


D      uring this semiannual reporting period new strategic goals were established
       for the OIG. Specifically, OIG has reviewed and monitored Department
and BBG programs, activities, and operations in the following areas:



Department of State


The Department adequately protects the
people, information, and facilities under its
control in the United States and abroad

In support of OIG’s goal to help the Department adequately protect the people,
information, and facilities under its control in the United States and abroad, OIG
completed an audit of the Department’s background investigations program and
conducted six security inspections or follow up reports and a summary of the
security inspections of U.S. diplomatic posts in the Bureau of European Affairs.
Security inspectors accompanying OIG inspection teams completed 13 classified
security annexes, which will be summarized in a classified annex to this semiannual
report.

    In a review of the Department’s personnel security investigations program for
top secret clearances, OIG found that 98 percent of background investigations from
a random sample of 50 investigations were not complete and periodic 5-year reinves-
tigations of employees holding top secret clearances are overdue.

    OIG conducted a review of the Department’s Anti-Terrorism Assistance (ATA)
Program and recommended the solicitation of competitive bids, a Memorandum of
Agreement to clarify ATA program responsibilities, and the establishment of coun-
try-specific objectives and measurements.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   5 .
           In response to the Government Information Security Reform Act (GISRA),
       OIG evaluated the Department’s information security programs and concluded that
       information security weaknesses continue to threaten Department operations do-
       mestically and abroad. OIG also found that the Department has not developed
       performance measures for its information security program, but has made progress
       in implementing a GISRA provision to establish the agency’s Chief Information
       Officer as the central management focal point for information security.

           In a review of the Department’s overseas wireless radio program, which provides
       a dedicated secure emergency and evacuation radio system, OIG found an improved
       security environment. Information Resource Management officials have generally
       established clear goals, incorporated performance measures, and worked vigorously
       for full implementation of the program. Additional coordination with Bureau of
       Diplomatic Security (DS) is necessary to ensure that local guard radios and the
       overseas wireless program address a shortcoming that was identified in the Nairobi
       bombing.

            To assist U.S. Government efforts to ensure critical infrastructure protection
       (CIP) for the United States and our allies, OIG examined the Department’s role as
       the lead agency for developing and implementing a CIP and its effectiveness as
       Foreign Affairs Functional Coordinator. The Department has made progress, but
       further work is required. OIG recommended that the Department assess the vulner-
       ability of overseas operations to cyber-based disruptions; conduct security-control
       evaluations at least every 3 years; strengthen training; and expand the Department’s
       international outreach.




       The Department effectively, efficiently, and
       economically advances the foreign policy
       interests of the United States

       A critical OIG mission is to inspect each post and bureau within the Department on
       a regular basis. Indeed, OIG is returning to the longstanding practice of inspecting
       every overseas post (and domestic bureau) at least once every five years, even though
       a Congressional waiver from such a statutory requirement remains in place. OIG is
       seeking to remove this waiver, so as again to be legally bound to such a cycle. OIG
       has continued its aggressive inspection program by inspecting six African, three
       South American, and two European posts during this reporting period.




6 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
    In Africa, OIG primarily found embassies to be well run but overextended. Cut
back in the early 1990s, Embassy Algiers would like to return to a more normal
diplomacy program but is now neither equipped nor staffed to do so.

    Operations at Embassy Djibouti are satisfactory, but its focus has been diluted
and unnecessary security risks caused by the addition of Somalia to its area of
responsibility. Better Internet access would benefit the isolated embassy in Asmara,
Eritrea.

    Overcrowded and extended over several sites, Embassy Accra does an outstand-
ing job of reporting, but needs more staff training, file computerization, and written
operating procedures.

    In Gabon, Embassy Libreville’s resources are overextended largely because the
Department is providing a no-cost platform for another U.S. Government agency, at
the expense of traditional diplomacy, and several officers have multiple duties
because of chronic staffing shortages.

    Budget shortfalls compromise the advancement of American foreign policy in
Togo, and personnel vacancies and cramped office space hamper operations at
Embassy Lome. The Department and the Bureau of African Affairs should evaluate
the need for a continued U.S. presence in Djibouti and Togo and provide an appro-
priate level of support if such a presence is, in fact, desired.

    In South America, Embassy Montevideo has coupled an aggressive commercial
program with efforts to remove impediments to increased U.S. trade in Uruguay.
OIG found Embassy Lima in the hands of a cohesive, well-led team, but insufficient
space and resources threaten to degrade operations. Well-led Embassy Asuncion
provides exemplary support to American interests in Paraguay; however, the Em-
bassy has outgrown its chancery buildings, and the present office space is crowded
and inefficiently arranged.

    Although Embassy Budapest is host to a growing number of U.S. Government
agencies with responsibilities outside Hungary, critical staffing gaps in the assignment
of senior officers have hindered the Embassy’s ability to coordinate and manage U.S.
policy.

    In Poland, Embassy Warsaw is doing an outstanding job of promoting U.S.
interests; however, the well-organized mission performance plan needs to be better
linked with resource allocation decisions. In both Hungary and Poland, the Agency
for International Development mission has closed its doors, but significant U.S.-
funded assistance programs continue to require coordination and tracking by the
Embassy.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   7 .
           A review of counternarcotics in Bolivia and Ecuador found that the Bureau of
       International Narcotics and Law Enforcement Affairs (INL) and the Bureau for
       Western Hemisphere Affairs have provided effective and energetic interagency
       leadership. Nevertheless, to implement the Andean Regional Initiative (ARI) both
       bureaus should consider a more structured approach and new mechanisms for
       interagency coordination. INL should also consider assigning a full-time senior level
       ARI coordinator.

           A follow up review of the Bureau of Human Resources found that the bureau is
       well aware of the need to draw the Foreign Service and the Civil Service personnel
       systems closer together. Despite improvements in workforce planning since 1997,
       the overall situation has not changed significantly. The Department’s workforce
       planning remains separate from strategic planning and is focused largely on the
       Foreign Service, which comprises only one-third of the workforce.

           OIG reviewed the Federal Voter Assistance Program and found that the lack of
       proper mail forwarding process resulted in 2- to 4-month delays in processing mail.
       OIG recommended that the Department establish procedures and revise guidance to
       permit use of the Department’s pouches by private American citizens to return
       absentee voting materials to the United States.




       The Department has the necessary financial
       and support systems and controls to meet
       legal and operational requirements

       Reviewing financial management issues, OIG found that the Organization for
       Economic Cooperation and Development (OECD) has strengthened internal
       controls and implemented a new financial system. OIG recommended that OECD
       institutionalize annual external audits.

           Other financial reviews found that the Bureau of Consular Affairs had addressed
       deficiencies in the cashiering operations at the Miami Passport Office, and that the
       Department’s Worldwide Purchase Card Program lacked the requisite documentation
       to determine whether 12 percent of the purchases were properly made and recon-
       ciled in a timely manner.




8 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
    OIG examined two grants totaling about $4.3 million to the Iraqi National
Congress Support Foundation and questioned $2.2 million in costs. OIG found that
significant improvements in accountability were needed.

    OIG also examined 20 grants totaling about $15 million as part of an overall
effort to review Freedom Support Act assistance to the New Independent States
within the former Soviet Union. OIG found the grantee did not adequately account
for Federal funds and overcharged for travel costs. OIG questioned costs of ap-
proximately $8 million of which $272,297 was unallowable.

    A contract audit of uniformed armed and unarmed guard services for Depart-
ment offices in greater Washington D.C., with a value of $68 million between Janu-
ary 1997 and June 2001, disclosed erroneous payments of approximately $4.6 million
for higher rates than required under the contract.

    OIG reviewed overseas medical operations and found that medical professionals
do a commendable job of providing health care and advice under difficult conditions
overseas. The Department needs to complete tracking of reimbursements for over-
seas hospitalizations, since it has almost $1 million in open accounts receivable for
fiscal years 1996-1999.




The Department is free of fraud, waste,
abuse, and mismanagement

OIG conducts investigations of alleged criminal, civil, and administrative miscon-
duct. The investigations conducted during this reporting period included alleged
theft, employee misconduct, conflict of interest, and visa fraud.

    Specifically, investigations included a conflict of interest case against a former
ambassador who contacted a U.S. embassy on behalf of his new employer within
one year of retirement from the Department. The former ambassador paid $10,000
in settlement. Another senior employee was reprimanded for violation of nepotism
regulations when the employee attempted to intervene in a promotion decision on
behalf of a family member.

    The OIG cases within the reporting period included the arrest of an attorney in
New York for visa fraud, mail fraud, and conspiracy in submitting fraudulent applica-
tions to the Diversity Immigrant Lottery Program.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   9 .
             Another successful case involved a joint investigation with the Immigration and
        Naturalization Service (INS) regarding a Turkish national who was charging custom-
        ers $5,000 to $6,000 for C-1/D-1 transit/crewmen visas. The investigation widened
        as two associates of the Turkish nations were found to have generated numerous
        letters to several U.S. consulates.

            Another joint investigation determined that substantial numbers of foreign
        nationals obtained passports with counterfeit work-authorized visas from the Social
        Security Administration’s (SSA) offices in Richmond and Norfolk, Virginia. Using
        these false documents, the illegal aliens were able to obtain work-authorized Social
        Security cards.

            Another case of visa fraud involved a large-scale scheme to defraud the EB-5
        investor visa program. The investigators determined that a company had submitted
        fraudulent visa petitions and other false statements to the government, pocketing
        approximately $21 million.

            A case of student visa fraud at a New England university found that a group
        operating in New York issued a substantial number of student visas to Chinese
        nationals who were not students.

            Seven people were arrested in a case on which OIG has been working with INS,
        the Internal Revenue Service, and the SSA since 1999 involving visa fraud, money
        laundering, wire fraud, and inducement of an alien to enter the country illegally.

            In another investigation in Florida, two people were arrested on money launder-
        ing charges and inducing aliens to enter the country illegally.

            In October 2000, OIG cooperated with the U.S. Customs Service in an investiga-
        tion of an employee accused of stealing Department computer hardware/software
        and selling it overseas. The suspect was arrested, tried, convicted, and is now await-
        ing sentencing.

           OIG also investigated an allegation received by DS involving the theft of pass-
        port fees by an examiner at the New York Passport Agency.




10 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Broadcasting Board of Governors


The BBG adequately protects the people,
information, and facilities under its control in
the United States and abroad

OIG conducted a security follow up review of Radio Free Europe/Radio Liberty,
Prague, Czech Republic. OIG also conducted two legislatively mandated audits that
focused on BBG’s information systems. OIG conducted a review of Internet privacy
management at BBG. We also evaluated the information security program and
practices of BBG as mandated under GISRA to identify BBG policies and proce-
dures for securing electronic information and to determine BBG’s effectiveness in
implementing GISRA requirements.




The BBG effectively, efficiently, and
economically advances the foreign policy
interests of the United States

OIG reviewed BBG’s audience research operations. OIG examined BBG’s progress
in developing a reliable research capability, its process for collecting and utilizing
audience research, and its contracting practices related to audience research. In
addition, OIG evaluated the audience research performance data as reported in
BBG’s FY 1999 performance report under the requirements of the Government
Performance and Results Act (GPRA) (Public Law 103-62). OIG found that BBG
made significant progress in developing a reliable audience research capability.
However, OIG recommended that BBG better ensure the use of audience research,
improve its GPRA planning and reporting process, and ensure that all BBG-related
contracting practices comply with OMB guidance.

    In an inspection of the Sao Tome Transmitting Station, OIG found the station
to be self-sufficient and effectively managed; however, several staffing issues need to
be addressed.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   11 .
        The BBG is free of fraud, waste, abuse, and
        mismanagement

        An OIG investigation found that several members of BBG also served concurrently
        on the Board of Directors of a non-governmental organization that contracts with
        BBG, thereby creating the appearance of a conflict of interest. While the investiga-
        tion concluded that this was a thing of the past, OIG issued a Management Implica-
        tion Report recommending that future BBG governors be restricted from serving on
        the Board of Directors of any non-governmental organization.




12 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
  CONGRESSIONAL ACTIVITIES AND OUTREACH



Hearings
On June 27, 2001, the Senate Foreign Relations Committee held a confirmation
hearing at which Clark Kent Ervin’s nomination to be Inspector General of the
Department and the BBG was considered. The Inspector General was introduced
by Senators Phil Gramm and Kay Bailey Hutchison of Texas. He was confirmed by
the Senate on August 3, 2001.



Congressional Requests
 • In response to a request from the Senate Subcommittee on Commerce, Justice,
    State and the Judiciary of the Committee on Appropriations, OIG reported on
    an audit of the Department’s explosive detection equipment.
 • In response to another request from the Senate Subcommittee on Commerce,
    Justice, State and the Judiciary of the Committee on Appropriations, OIG
    reported on a review of the financial management practices of OECD.
 • In response to a request from the House Subcommittee on National Security,
    Veterans’ Affairs, and International Relations, OIG briefed the subcommittee
    on the managerial and contracting practices of DynCorp as they pertain to a
    contract with the Department for an American police presence in Bosnia.



Comments on Proposed Legislation
The Inspector General has requested that Congress delete the statutory waiver that
relieves OIG from a requirement that we inspect overseas posts and domestic
bureaus on a 5-year cycle. This requirement is stated in Section 209 of the Foreign
Service Act of 1980 (Public Law 96-465). The new Inspector General is committed
to reinvigorating and maintaining a robust worldwide inspection program and to
ensuring that OIG remains focused on this core statutory mission.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   13 .
        The OIG reviewed the following proposed
        legislation:

         • HR 1646 and S. 1401 – The Foreign Relations Authorization Act, Fiscal Years
            2002 and 2003, which authorizes the appropriations the Department needs to
            carry out its authorities, functions, duties and responsibilities in the conduct of
            the foreign affairs of the United States and for other purposes authorized by
            law, including public diplomacy activities and the diplomatic security program.
         • HR 2500 and S. 1215 – The Departments of Commerce, Justice, State, and the
            Judiciary, and Related Agencies Appropriations Act, 2002, which appropriates
            funds for these agencies through September 30, 2002.
         • HR 2506 – The Foreign Operations, Export Financing, and Related Programs
            Appropriations Act, 2002, which appropriates funds for export and investment
            assistance, foreign assistance, foreign military assistance programs, multilateral
            economic assistance, and international development and counternarcotics
            activities.
         • S. 1428 – The Intelligence Authorization Act for Fiscal Year 2002, which
            authorizes appropriations for intelligence and intelligence-related activities of
            the United States Government.
         • HR 2215 – The 21st Century Department of Justice Appropriations Authoriza-
            tion Act, which includes a provision to establish an Inspector General within
            the Federal Bureau of Investigation.
         • HR 2547 – The Erroneous Payments Recovery Act of 2001, which includes a
            provision that agencies conduct “recovery audits” for detecting erroneous
            payments.




14 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Outreach
The Inspector General addressed the September Ambassadorial Seminar for newly-
appointed ambassadors to discuss the role and function of the OIG and to share
with them a variety of ideas for better management of their embassies.

    In June, members of the OIG executive staff met with a visiting delegation from
Taiwan’s Foreign Ministry to discuss the audit, inspection, and evaluation systems for
oversight of foreign embassies and missions. The OIG also shared methodologies
for strengthening internal management controls in government programs.



GPRA Review
The Department’s strategic planning process continues to improve, although it does
not yet fully comply with the GPRA. The OIG assesses Department goals and
performance measures, and verifies and validates performance data, as an integral
component of its audits and inspections. For example, as noted elsewhere in this
report, the Department has established clear goals and measures for its worldwide
purchase card program and overseas wireless program, but it has not yet developed
performance measures for its information security program. Assessments of the
Mission Performance Plans at the posts we inspected also found deficiencies, al-
though some plans, like Embassy Warsaw’s, were well-organized and reflected
extensive consultations within the mission.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   15 .
16 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                                    SECURITY


During the reporting period, the OIG Office of Security and Intelligence Oversight
(SIO) completed an audit of the Department’s background investigations program.
SIO also conducted six security inspections or follow up reports and a summary of
the security inspections of U.S. diplomatic posts in the Bureau of European Affairs.
Continuing its practice of sending a security inspector to accompany OIG post
management inspection teams, SIO completed 13 classified security annexes. Be-
cause SIO reports discuss specific security vulnerabilities of the Department and its
posts, synopses of SIO classified reports will be published in the classified annex to
this report, which has limited distribution. The titles of the classified reports issued
during this semiannual period are listed in the appendix of this report.




Audit of the Department’s Background
Investigations (01-SIO-R-061)

This audit evaluated the Department’s personnel security investigations program.
Specifically, OIG examined the status of the Department’s backlog of periodic re-
investigations, along with the Department’s plan for eliminating the backlog. Audit
work focused on the Department’s personnel security investigations for top secret
clearances and whether those investigations complied with the Federal investigative
standards and were conducted in a timely manner. The audit also included a review
of the Department’s internal controls over the personnel security investigation files.

    The audit found that the Department has not fully complied with the Executive
Order 12968, which established uniform Federal requirements for granting employ-
ees access to classified information to wit:
 • The Department is not conducting a periodic re-investigation every five years
    of employees holding a top secret clearance. DS does not know the actual
    extent of its backlog, but was working on a list of 3,793 periodic re-investiga-
    tions overdue as of the time of the audit.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   19 .
         • In a random sample of 50 background investigations reviewed for compliance
            with the Federal standards, 49 (98 percent) were incomplete. One or more of
            the nine required investigative areas was not adequately addressed.
         • Temporary clearances have not been restricted to exceptional circumstances,
            the full investigations have not been expedited, and preliminary steps were not
            completed as required. Clearances have been revalidated for returning employ-
            ees who lacked a current background investigation.
         • The Department’s background investigations are often not completed in a
            timely manner. In a random sample of 171 investigations, the length of time to
            complete the investigations varied considerably. The median timeframe was 6.9
            months.

            OIG recommends that the Department fund background investigations based
        on projected hiring levels and a 5-year cycle for periodic re-investigations; improve
        guidance and oversight over background investigations and issuance of clearances;
        implement a standard time frame for completing background investigations; and
        increase the number of personnel overseeing background investigations based on a
        staffing needs analysis and caseload requirements.




        Audit of the State Department’s Anti-
        Terrorism Assistance Program (01-SIO-R-085)

        OIG initiated this audit to determine whether the Anti-Terrorism Assistance (ATA)
        program was being administered in an efficient manner and enhancing the capabili-
        ties of foreign governments to counter terrorism. This entailed reviewing ATA
        program management, contracting issues, performance measurement, and curricu-
        lum quality. OIG found that Department officials had different views on the direc-
        tion of the evolving ATA program and the appropriate use of ATA funds. OIG also
        found that the use of a cooperative agreement was not appropriate and may not be
        the most economical or effective means of implementing ATA training. In addition,
        DS has not established measurable goals for participating countries to determine
        whether ATA training was reaping not just enhanced diplomatic relationships, but
        also improved anti-terrorism capabilities.
            This report included recommendations for implementing a Memorandum
        of Agreement between S/Coordinator for Counterterrorism and DS, soliciting
        competitive bids for training services, and establishing country-specific training
        objectives and measurements.


20 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                                INSPECTIONS



Inspection of Embassy Algiers, Algeria
(01-FP-R-046)

Energy-rich Algeria provides significant opportunities for American diplomacy, but
widespread violence in the early 1990s forced the Embassy to reduce staff and limit
activities. As of early 2001, the capital (but not the countryside) was far safer, and
the Department would like to conduct a more normal diplomacy program. The
Embassy, however, is neither equipped nor staffed to do so.
     Extensive security precautions are still needed and limit what the Embassy can
accomplish. The post must also cope with chronic deficiencies in almost all sup-
port operations, from housing to basic inventory controls. All American personnel
live on the Embassy compounds, but wide disparities in housing quality lower mo-
rale. Housing should be upgraded. Although allowances are generous, it remains
difficult to attract experienced personnel. Security constraints and short tours
contribute to, but do not excuse, poor performance. For example, there was no
inventory reconciliation for eight years. When the post finally reconciled its inven-
tory in 2000, $1.8 million in equipment and supplies was missing.
    The number of American direct hire employees appears adequate for the post’s
current responsibilities. Of the 35 American employees, 21 are in nonsecurity-
related positions. The Algerian staff forms the backbone of the post, but few had
adequate supervision.




Inspection of Djibouti, Republic of Djibouti
(01-FP-R-047)

Djibouti’s port and airport have proved useful in dealing with humanitarian disas-
ters and military contingencies in the region. The U.S. Embassy facilitates access,
while France plays a key stabilizing role by stationing 3,000 military personnel in


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   21 .
        Djibouti. The Embassy has eight direct hire Americans and a budget of $3.5
        million. The small, expensive Embassy rightly participates in the Special Embassy
        Program. The decision to cover the neighboring northwest portion of Somalia
        (Somaliland) from Djibouti, however, appears to reflect a loss of perspective and
        has resulted in needless security risks. The Department should assess the advan-
        tages and risks of a continued role for Embassy Djibouti in Somaliland. OIG also
        recommended immediate disposal of a costly, but still unseaworthy, boat used for
        recreation.




        Inspection of Embassy Asmara, Eritrea
        (01-FP-R-049)

        United States interests in Eritrea, which gained independence from Ethiopia in 1993,
        are largely humanitarian. The post has 22 direct hire American staff, including a U.S.
        Agency for International Development mission and two military offices. Designa-
        tion of Embassy Asmara as
        part of the Special Embassy
        Program rightly acknowl-
        edges the limited nature of
        American interests. This
        isolated post could be more
        productive, particularly in
        procurement and commer-
        cial work, if it had better
        Internet access. Improved
        planning can achieve better
        balance in reporting on key            Open-air conference room at Embassy Asmara.
        issues.




        Inspection of Embassy Accra, Ghana
        (01-FP-R-O63)

        U.S.-Ghana relations are excellent. Official visitors pour in, attracted by Ghana’s
        democratic transition in December 2000, its pro-U.S., pro-business stance, and its
        increasingly significant role in regional peacekeeping. However, there may be too


22 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
much activity, considering the Embassy’s support capabilities. Embassy people like
their jobs: they speak of doing important work, at an interesting time, in a country
with which the United States has good relations and which seems to be moving
forward. All sections, however, operate at maximum tempo and Mission people are
stretched and tired in the daily conduct of their business.

      Accra is already a major presence for the United States in African embassies, and
it is continuing to grow. The staff is comprised of 77 direct hire Americans, 15
contract Americans, and 362 Foreign Service nationals. The Embassy’s FY 2000
budget was approximately $7.3 million. U.S. Agency for International Development
programs dispense $55 million a year. Other agencies at post include the Peace
Corps, the INS, and Defense. The Administrative section is concerned about the
need to find office space for three to five additional direct hire Americans.

    The Embassy must conduct its relations with the Government of Ghana via
dysfunctional Embassy offices and communication systems. It is difficult to build a
coherent team when the cramped, overcrowded Embassy offices are spread over six
campuses. Poor intramission communications (traffic, congested streets, bad phones,
limited e-mail connectivity, too few motorpool vehicles, and no Internet in the
chancery) make it even more difficult. A new office building is about ten years in the
future.

    The well written, 60-page Mission Performance Plan (MPP) may be too ambitious,
both for Ghanaians and for the United States. The Embassy’s coordination of the
various available U.S. government assistance programs in support of MPP goals is
masterful. On the other hand, Ghana’s new government must focus first on survival.

     OIG concurs with the assessment of Washington readers that “ ...Ghana’s
reporting is the most outstanding all around.” Embassy officers’ relationships of
trust with their contacts paid off during Ghana’s December 2000 pre-election jitters,
enabling the Mission to report on possible problems and to act in a timely manner to
avert them. Even though a lack of support from the U.S. Foreign & Commercial
Service hampers the Mission’s ability to exploit opportunities for U.S. business, the
Mission has logged some commercial successes. In the consular section, work is
needed on written standard operating procedures, staff training, computerization of
files, and anti-fraud measures. With sharply increased nonimmigrant visa applications
boosted by Ghana’s collapsing economy, there is a rising incidence of fraud.

   OIG advised the Embassy to moderate and better control the pace of relations.
Slowing the tempo would help not only internally, but perhaps also with the newly
appointed and overwhelmed officials of the Ghanaian government.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   23 .
        Inspection of Embassy Libreville, Gabon
        (01-FP-R-O65)

        No senior Department officer has visited Libreville, Gabon in many years. At U.S.
        urging, Gabon contributed troops to a U.N. peacekeeping mission in the Central
        African Republic. During Gabon’s recent term on the U.N. Security Council, it voted
        more often with the United States than any country but the United Kingdom.
        Libreville has served as a base for five noncombatant evacuation operations in the
        last 7 years; there could be more. Gabon exports $2 billion in oil, mostly to the
        United States. Gabon’s per capita income is Africa’s highest. Gabon’s human rights
        performance is fair. There were no reports last year of politically motivated killings,
        and the press was allowed to criticize the government in a limited way.

            Embassy Libreville’s Mission Performance Plan goals are ambitious, and the
        Embassy’s resources are overextended. This applies especially to the Embassy’s
        support for extensive activities on behalf of the Department of Defense (Defense),
        which maintains no representation in Gabon. It has prevented the Embassy from
        developing and reporting on contacts with a full range of significant political figures.
        It has also had an adverse impact on consular management in an environment of
        persistent fraud. The Department is providing a no cost platform for another U.S.
        Government agency, at the expense of traditional diplomacy, which is the
        Department’s core mission.

            Administrative services burden an overworked administrative officer who is
        responsible for security, immediate oversight of budget and fiscal and human re-
        source operations, the community liaison officer, and the medical unit the Depart-
        ment shares with the Peace Corps. Further, he also supervises the general services
        officer, a first-term junior officer who is located at the warehouse, and the informa-
        tion management officer, whose section has suffered prolonged staffing gaps.

            Support from the Department and regional officers is inadequate. The post has
        faced long gaps at crucial positions. Working conditions are poor, and a 3-year tour
        of duty policy further discourages mid-grade officers from putting Libreville on their
        bid lists. Section chiefs are often on their first or second tour, and they are over-
        whelmed by the challenges of working in Central Africa. Embassy staff who coordi-
        nate assistance programs lack the training and information resources for efficient
        management.




24 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
    After its 1995 withdrawal from Libreville USIA adopted a “no residuals” policy,
denying public diplomacy resources of any kind to posts with no U.S. Information
Service operation. The Bureau of African Affairs’ Public Diplomacy Office is now
considering a proposal known as “Africa Public Diplomacy-Lite” to provide basic
product and program support plus access to specific programs, which could be ideal
in meeting Libreville’s public diplomacy needs.

   OIG recommended that the Department, in conjunction with other agencies,
especially Defense, determine whether to remain in Gabon. If a decision is made to
continue U.S. presence in Gabon, the Department and Defense must provide the
post with adequate personnel and material resources.




Inspection of Embassy Lome, Togo
(01-FP-R-O66)

Togo is one of Africa’s poorest nations. Togo has a deplorable record on human
rights and receives no direct U.S. aid. The United States seeks to promote democracy,
human rights, and sustainable economic development there. However, it has few
resources to apply to these goals, and trends in Togo often seem to be moving in a
negative direction. With Togo’s economy at a low ebb trade with the United States is
at minimal level, with few near-term opportunities for increased U.S. sales. Consular
fraud is a persistent problem.

    The Ambassador and DCM provide superb leadership to their Embassy of 11
direct hire Americans, 3 of whom are first-tour officers. There are 12 other Ameri-
cans on the Embassy staff. OIG has rarely seen a post whose ratings for front office
leadership and administrative satisfaction were both as high.

    The local hire staff is not small: it includes 167 local security personnel and 105
Foreign Service nationals. The Embassy’s budget is $3.5 million. Department, bu-
reau, and regional support, however, falls far short of what is needed to attain or
even to approach the Embassy’s goals. The Embassy has endured long personnel
vacancies. Local staff has no reliable retirement scheme. There is little prospect of
early movement on a badly needed new chancery complex. Our people, meanwhile,
work in an unsafe, cramped, and inefficient work environment.

    OIG recommends that the Department and the Bureau of African Affairs
evaluate the need for continued U.S. presence in Togo. If the Department intends to
keep an embassy in Lome, an increased level of support is necessary.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   25 .
        Inspection of Embassy Montevideo, Uruguay
        (01-FP-R-056)

        Embassy Montevideo has undertaken an aggressive commercial program coupled
        with efforts to remove Uruguayan legal and practical impediments to U.S. trade. The
        Embassy pursues improved cooperation in other areas such as protection of intellec-
        tual property, the environment, and law enforcement. The United States also seeks
        to strengthen democracy in Uruguay by improving civil-military relations, which are
        complicated. A long democratic tradition was interrupted by a 12-year period of
        military dictatorship beginning in 1973. Uruguay is a significant partner in interna-
        tional peacekeeping efforts, contributing specialized military units to a number of
        peacekeeping operations. The United States has a small counternarcotics assistance
        program to encourage Uruguayan efforts against money laundering and the transit
        of drugs.
            The Embassy’s Mission Performance Plan provides a road map of clear perfor-
        mance indicators and is used as an ongoing management tool. The Embassy does an
        outstanding job of communicating its message to the Uruguayan public and elites,
        despite very limited staffing in the public affairs section. One of the post’s principal
        staff resources, the political/labor/economic/commercial section, needs better internal
        communication and more structured interaction with other mission units.
            The consular section is adequately staffed to meet reduced needs in the wake of
        the application of the visa waiver program to Uruguay. Poor management within the
        section has led to morale problems and missed deadlines. The administrative section is
        well staffed and delivers excellent services. OIG made several recommendations to
        speed response time and bring post practice into alignment with Department policy.
        The current retirement “system,” whereby FSN employees are left to plan for the
        future on their own, is unfair. The post and the Department should accelerate the
        effort to enroll employees in a responsible private retirement fund.
            The post should consider replacing the local guard force with a contract guard
        force. The increased cost that will occur should no longer be used as a pretext to
        postpone this essential step.




26 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Inspection of Lima, Peru (01-FP-R-O57)

U.S. interests in Peru center on promoting democracy, combating narcotics traffick-
ing, and encouraging free market economic development. The experienced country
team is cohesive and well led by an active Chief of Mission, whose counsel influ-
ences the Washington policy process. The Mission Performance Plan is comprehen-
sive but needs updating to account for the dramatic political developments of the
past year. Reporting assets also should be better integrated. Public affairs activities
are effectively employed in support of Embassy goals.

     U.S. support for a free and fair presidential election has helped Peru recover
somewhat from former president Fujimori’s scandal-plagued legacy. Democracy is
intact but fragile. Continued U.S. engagement and coordination with the international
community will be crucial. Counternarcotics operations, particularly eradication of
coca (the raw material for cocaine), have slowed as the government copes with the
immediacy of other issues. Peru’s weak economy fosters widespread poverty that
provides fertile ground for the lure of drug cultivation and trafficking. The Embassy
is effective in promoting U.S. trade with Peru.

    The large chancery, built to Inman security standards, and U.S. personnel are
well protected, although consolidation of U.S. agencies on the compound is
ongoing and public access is difficult. American staff has grown by 33 percent
since 1995, leading to overcrowding in some parts of the chancery and overbur-
dened support systems. This will grow worse when 157 U.S. Agency for Interna-
tional Development (USAID) staff move to a new building on the compound next
year. Insufficient resources hamper Embassy operations. The consular section is
addressing a massive growth in visa demand that has led to long lines and poor
customer service. More local staff is needed, and public access must be facilitated.
Foreign Service national employee morale has suffered because of large increases
in health insurance premiums and the Embassy’s inability to adjust salaries and
benefits according to the results of the latest local wage surveys.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   27 .
        Inspection of Embassy Asuncion, Paraguay
        (01-FP-R-058)

        Embassy Asuncion’s primary goal is strengthening democratic institutions and civil
        society in this emerging democracy. Inadequate Paraguayan institutions impede
        Mission programs to combat narcotics trafficking, money laundering, intellectual
        property piracy, and international terrorist organizations. The Ambassador and
        DCM provide clear and effective executive direction and enlist the support of
        counterparts from Brazil and Argentina to increase diplomatic and economic lever-
        age on the Government of Paraguay.
            Support to American business interests is exemplary. The post has been imagi-
        native in bringing Paraguayan businessmen into contact with American trade mis-
        sions and aggressive in assisting American companies caught in the maze of
        Paraguay’s judicial system. The Embassy does an outstanding job of promoting
        environmental protection in a country that has two sensitive endangered ecosystems.
        Well-orchestrated public diplomacy, with careful attention to the media, is a key
        component of Embassy success in meeting its goals.
            The post is administered well, despite modest American staffing. In the recent
        past, long gaps between assignments of American supervisors led to institutional
        drift, which a new management team is addressing. The Interagency Cooperative
        Administrative Support Services Council should meet more regularly and explore
        ways to eliminate duplicate services such as shipping and customs, procurement, and
        residential maintenance now offered by the Embassy, USAID, and U.S. military
        component administrative sections.
            Embassy Asuncion has outgrown its chancery buildings. Office space is
        crowded and inefficiently arranged. Parts of the main building, the administrative
        annex, and the Marine residence do not have adequate setback from a major road.
        The approximately 15-acre compound is large enough to resolve all issues through
        new construction. Long-range planning for such construction should not delay
        needed short-term fixes, however, such as remodeling the consular section to address
        internal controls inadequacies, relocating the offices of the Drug Enforcement
        Administration, and restoring to the Embassy its much needed conference room.
        The inspection found post physical security and emergency preparedness programs
        to be in good working order. Inattention to customer service by the security staff
        has led to a perception of ineffectiveness and a loss of confidence in the section by
        Mission personnel. Post management is working with DS to improve the perfor-
        mance of the security team.


28 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Inspection of Embassy Budapest, Hungary
(01-FP-R-090)

For the past several years, Embassy Budapest has pursued an initiative-based ap-
proach to policy management. At the urging of the former Ambassador, the Mis-
sion launched a series of related activities to advance specific objectives. Some
accomplished much. Others were less impressive. Embassy Budapest, under new
leadership now, should initiate a mission-wide review and establish a new Embassy
work program reflecting U.S. priorities and changed circumstances within Hungary
and the Mission.

    There was a long period during which there was no U.S. Ambassador in
Budapest. The absence of a Chief of Mission hampered Embassy Budapest’s ability
to coordinate and manage U.S. policy in Hungary. The problem was further compli-
cated by the lack of senior officers at the post and by the departure of several experi-
enced country team members. The Department needs to review procedures for
executive-level assignments and to develop and implement a plan to ensure that
anticipated gaps in the leadership of diplomatic missions are covered by experienced
officers of appropriate rank.

    Embassy Budapest, at the direction of the former Chief of Mission, raised
significant sums of money for cultural programming under authorities transferred
from USIA to the Department following consolidation. The post, in several in-
stances, went beyond guidelines for both the solicitation and acceptance of gifts.
Solicitations were made to firms that did not meet established criteria. Some donors
were involved with both the Mission and the host country. Others were not U.S.
organizations. The same donors were repeatedly approached, and some funds had to
be returned. The Department needs to review its guidance and strengthen its
oversight procedures in this area.

     Embassy Budapest needs to reassess its cultural programming and bring these
activities into better balance with U.S. interests and the Mission’s ability to sustain them.

   Although the USAID mission has closed its doors in Budapest, significant U.S.-
funded assistance activities continue. Embassy Budapest is hard pressed to track,
much less coordinate, these activities. There is an extensive network of other gov-
ernment and private sector donors. The Embassy has some contact with these
groups, but the effort is far less comprehensive than when the USAID mission was




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001    29 .
        present. Embassy Budapest needs to improve coordination with other donors and
        ensure that U.S.-funded activities are consistent with mission priorities.

            Embassy Budapest is host to a growing number of U.S. Government agencies
        with responsibilities outside Hungary. This has generated increased demands on the
        Mission for support and office space. While there are good reasons to select
        Budapest as a center for regional activities, neither the Department nor the Embassy
        has a plan that defines the post’s regional role and establishes a framework for the
        post’s future development. Without such a strategy, sound judgments cannot be
        made about staffing, infrastructure, and other resource needs.

             Embassy Budapest, in its search for additional work space for an expanding staff,
        has proposed a property trade to acquire two buildings adjacent to the chancery.
        Funds have not been identified for the extensive renovations needed to make these
        buildings usable. An alternate, interim location would have to be found for the
        Marine security guard detachment, which currently occupies the property to be
        traded. The Department and Embassy Budapest must determine future staffing
        needs in Hungary before a decision is made on this or any other proposal to expand
        facilities at Embassy Budapest.

             The nonimmigrant visa workload has risen by 30 percent in the last two years, as
        has the related refusal rate. This has reduced Hungary’s prospects for participation
        in the Visa Waiver Program, leading to increased pressures from Hungarian authori-
        ties for the United States to find a way to include Hungary in the program despite
        the high refusal rate. Embassy Budapest, which is doing a commendable job so far,
        needs to redouble its efforts to explain U.S. visa laws and procedures, the reasons for
        refusals, and the factors affecting Hungary’s accession to the Visa Waiver Program.

            Embassy Budapest deserves great credit for the outstanding support it provided
        to the Office of Yugoslav Affairs. By providing an effective platform for U.S. efforts
        to restore democracy to Yugoslavia, while still pursing its bilateral agenda, Embassy
        Budapest made a major contribution to a critical U.S. objective in the region. Others
        can benefit from this experience, and Embassy Budapest needs to prepare a report
        on lessons learned.

            There are few management controls for nonexpendable property. Shortages in
        excess of $160,000 were reported and still have to be fully resolved. In addition,
        controls for funds needed to support the Office of Yugoslav Affairs, as well as
        controls over the collection, expenditure, and reporting of monies raised for      cul-
        tural events, need strengthening. The certification of management controls by the
        former Chief of Mission did not identify these weaknesses.




30 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Inspection of Embassy Warsaw, Poland
(01-FP-R-091)

    Embassy Warsaw is doing an outstanding job of promoting U.S. interests in
Poland. The United States strongly supported Poland’s application for membership
in NATO and backs its current efforts to join the European Union. Poland, a recent
graduate of U.S. bilateral assistance and Peace Corps programs, is firmly committed
to democracy and a market economy. Poland is a success story both for the Polish
people and for the United States.
    The United States has a growing economic stake in Poland. Between 1993 and
2000, U.S. investment increased almost sixfold to over $7 billion. Exports from the
United States, on the other hand, declined more than 8 percent in 2000, in part as a
result of tariff discrimination in favor of EU products. Embassy Warsaw is focused
on this issue but needs to coordinate its advocacy and reporting more effectively
with similar efforts by the U.S. Mission to the EU and U.S. embassies in EU member
states.
    Embassy Warsaw places appropriate high priority on Holocaust issues. Absence
of a strategic approach that places these concerns in a larger international context,
however, encourages Embassy Warsaw to view matters raised by the Jewish-Ameri-
can communities as potential irritants to bilateral relations rather than in the larger
context of which they form a part. These concerns in Poland can most effectively
be addressed as part of an overall U.S. Government approach to the full range of
Holocaust issues, including an international regime for historic preservation of the
extermination camps in Poland and elsewhere.
    The United States has provided billions of dollars in assistance to Poland in the
past decade. Although the USAID mission closed in late 2000, the United States
continues to supply substantial sums to Poland through regional programs and
activities managed from Washington. Embassy Warsaw needs to develop a mecha-
nism to ensure that all U.S. Government assistance activities fit into a mission-wide
strategy reflecting U.S. priorities and objectives.
    Embassy Warsaw has or is developing the tools to make an already impressive
outreach effort even more effective. It was making good use of working groups to
address mission-wide concerns. It had taken steps to develop a comprehensive
contacts database. These efforts need to be expanded to include more systematic
mission outreach to other groups, including nongovernmental organizations, drawing
on information already available as a result of efforts by Mission elements and
decade-long USAID and Peace Corps activities throughout Poland.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   31 .
            Polish-American communities in the United States play a significant role (both in
        the United States and Poland) in the debate on policy issues relating to their country
        of ethnic origin. Communities in the United States were heavily engaged in the
        domestic discussion of NATO expansion and in earlier consideration of major
        bilateral assistance programs for Poland. These groups, however, are less informed
        about other foreign policy aspects of U.S.-Polish relations. Embassy Warsaw and the
        Department need to expand and maintain continuing contacts with the Polish-
        American communities in the United States.

             The Mission makes good use of technology, including digital video conferencing,
        to improve outreach and communication within the Mission. However, internal
        communication and coordination remain uneven. Shortcomings in the downward and
        lateral flow of information were consistent themes in staff responses to OIG question-
        naires. These matters will require the continuing attention of post management.

            The chancery and annex buildings in Warsaw need additional major renovations
        and a reconfiguration of space to permit more efficient operations. Additional piece-
        meal changes will be more costly than developing a plan that addresses all aspects of
        the project, including financing. Embassy Warsaw has requested funds for a master
        architectural plan to rationalize chancery facilities. OIG endorsed this request.

             Embassy Warsaw’s Mission Performance Plan is a well organized document,
        reflecting extensive consultations within the Mission. It is less impressive in developing
        performance indicators for evaluating progress toward the objectives it identifies. The
        plan’s uncertain linkage with resource allocation decisions, either in Warsaw or Wash-
        ington, is a more serious shortcoming that the Department needs to address.

            Embassy Warsaw has a first-rate consular operation, which includes Consulate
        General Krakow and a Consular Agency in Poznan. The nonimmigrant visa work-
        load is steadily increasing, rising 17.5 percent in FY 2000 over the previous fiscal
        year. The demand for American citizens services is also increasing. Embassy
        Warsaw’s growing consular workload could be eased by transferring responsibility for
        processing Ukrainian K visas from Embassy Warsaw to Embassy Kiev and by
        tightening diversity visa controls.

            Management controls are in place and functioning well, with one notable excep-
        tion. There was a serious vulnerability in the financial management of grants
        awarded by the public affairs section. Obligations under the Democracy Commis-
        sion Small Grants Program were mistakenly recorded and the grants were not
        executed until the subsequent fiscal year, constituting a possible administrative
        violation of the Anti-Deficiency Act.




32 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                                  Best Practices

    During the course of its post inspections, OIG noted the following “best
    practices” that are worthy of consideration by other posts.

    Electronic Human Rights Log
    Information relevant to the annual country report on human rights
    practices may come through a variety of open and confidential sources.
    Coordinating the annual update normally would involve many hours of
    painstaking research. In response, the American and FSN reporting
    officers at Embassy Accra have access to a common unclassified docu-
    ment in a shared computer drive, the human rights log. As each of them
    obtains information, they create unclassified entries suitable for inclusion
    in the annual update of the country report. As a result, the task of updating
    the human rights report each year can now be accomplished efficiently.

    Electronic Biographic Files
    In a busy political section, where everyone is pressed for time, it is diffi-
    cult to keep the biographic files current. In response, the front office,
    American and FSN reporting officers, and office management specialists
    have access to a shared unclassified computer drive in which unclassified
    biographic sketches are filed. As they obtain new information about listed
    people, they update the entries. The Embassy also maintains classified
    biographic files on a shared classified computer drive. When the Ambas-
    sador, DCM, or visiting delegations are preparing for meetings, they have
    immediate access to the biographic information they need without extra
    effort by staff members.

    Electronic Document Template for Creating Diplomatic Notes
    The creation, delivery, distribution and filing of diplomatic notes is a prob-
    lem at many posts. Different sections may have the action on different
    diplomatic notes; typing the notes in the correct format to fit on the spe-
    cially sized paper is time consuming. Host government action may pass
    from one office to another. Filing and subsequent retrieval can be problem-
    atic. In response, Embassy Accra uses an electronic document template
    for diplomatic notes. It eases the procedure of assigning a note number. It
    creates a cover sheet that records host government delivery information
    as opening and closing courtesies, and permits electronic insertion of text




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   33 .
            directly from demarche instructions or other documents. It also eases the
            creation of any necessary attachments.

            American Warden Recognition
            A consular section is tasked with providing protection to American citi-
            zens residing in or visiting a consular district. American wardens help
            the consular section keep track of the American community and are the
            Mission’s main route for passing emergency messages to the American
            community as part of the emergency preparedness program.

                 To achieve this, wardens are required to keep track of the American
            citizen population in their residential areas and to attend a minimum of one
            warden meeting a year. Keeping track of who is present and who has
            departed the area is difficult for the consular section without the assistance
            of conscientious wardens.

                In response, in January 2001, the consular section at Embassy Lome
            hosted an American community town meeting to introduce the new Am-
            bassador, DCM, and consular officer. The wardens were also available to
            meet new arrivals to their areas and each other. The consular section had
            selected four wardens who had performed their duties well by notifying the
            consular section of new arrivals and recent departures. The Ambassador
            presented certificates of appreciation to these wardens. This resulted in
            acknowledgment of the importance of a warden network and of its service
            to the American community.

            Timeliness and Presentation of Reporting
            The number of senior officials who read cable reports has diminished
            as the volume of cable reporting has increased. As a result, Embassy
            Budapest is sending record traffic via classified e-mail, using a new, more
            attractive and readable format, including photographs, charts, and other
            graphics, to enhance the effectiveness of the reports. The improved
            reports have drawn high praise from analysts and policy makers in the
            Department and other agencies.

            American Travelers Victimized by Scams
            In Budapest, some unscrupulous nightclubs and restaurants lure in cus-
            tomers, especially tourists, and force them to pay exorbitant bills. In
            response, the embassy has begun tracking the location and details of




34 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
    such incidents, publicizing them in the local media, and warning the
    embassy staff and visitors, thereby reducing the number of Americans
    victimized in these scams.

    Using Teamwork to Promote Military Sales
    At the direction of the Ambassador, Embassy Warsaw established Team
    Falcon in an effort to convince Poland to purchase U.S.-made F-16 air-
    craft to meet its NATO force requirements. Team Falcon, chaired by the
    Deputy Chief of Mission, and including civilian and military components of
    the mission, has worked closely with the U.S. manufacturer to develop a
    comprehensive strategy for promoting the F-16 and ensuring a level
    playing field in stiff competition with European Union companies. Public
    diplomacy activities in support of the effort included an F-16 website and
    a defense symposium highlighting the capabilities of the U.S. multi-role
    fighter. As a result of the efforts of this task force, the F-16 is expected to
    win the sale when the results of the public tender are announced.

    Digital Video Conferencing
    To enhance mission communications and expand outreach activities, the
    American Information Resource Center (AIRC) of the public affairs section
    at Embassy Warsaw created a multipurpose media room that can be used
    to conduct digital video conferences. As a result, communication and
    coordination between the Embassy and the consulate general in Krakow,
    which has similar facilities, have been enhanced through weekly digital
    conferences. The new telecommunications systems allow the embassy to
    take part in programs linking Polish and American entities, including
    academic institutions and the media.

    User Friendly Information Systems Services and Support
    The Information Systems Center at Embassy Warsaw designed and
    distributed an attractive brochure detailing available information systems
    services, including information about computer training, the print shop and
    the locations of common user work stations. The pamphlet also contains
    access request forms, as well as photos of members of the information
    staff. As a result, mission personnel are better informed about what
    services are available, and are more familiar with the information systems
    staff.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   35 .
        Compliance Follow-Up Review of the
        Inspections of the Bureau of Human
        Resources and The Foreign Service
        Institute (01-HR-R-O60)

        This review found that the Bureau of Human Resources is well aware of the need
        to draw the two personnel systems closer together and has clearly enunciated this
        objective in its Bureau Performance Plan (BPP) for 2001-2002. This plan evidences a
        strong interest in greater assignment integration and in expanding training and
        professional development for Civil Service personnel.

            Despite improvements to some individual workforce planning system compo-
        nents since 1997, the overall situation has not changed. The Department’s workforce
        planning remains separate from strategic planning and focused on the Foreign
        Service, a third of the workforce. Resources needed to develop a workforce planning
        system are in short supply.

             The Department lacks the human resources necessary to mount a fully effective
        job training and professional education program for the current workforce. Managers
        at every level in the Department consistently acknowledge the need to do more in
        management training and leadership development, but point to a severe lack of
        resources as the principal barrier. M/DGHR estimates that the current workforce
        needs to be enlarged by approximately 1,200 positions, at a cost of approximately $1
        billion annually. These additional resources are needed to release employees from
        their jobs to pursue identified training requirements (a so-called “personnel float”
        similar to that used by the U.S. military).

            The Department’s emphasis on expanding training, and its intent to seek the
        staffing increases needed before a major increase in training, are both set forth in the
        M/DGHR BPP for 2001-2002. However, these future increases in training assign-
        ments, by expanding both the importance and the volume of skill and assignment-
        oriented training, will require a more comprehensive, systematic approach to plan-
        ning and anticipating the Department’s overall training workload.




36 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Review of Implementation of the Federal
Voter Assistance Program (01-FP-M-O45
and 01-FP-L-055)

At the request of the American Foreign Service Association, OIG reviewed the
Department’s implementation of the Federal Voter Assistance Program (FVAP),
including mail support for FVAP. This review was conducted concurrently with the
Department of Defense (Defense) OIG and the General Accounting Office (GAO)
reviews of the Uniformed and Overseas Citizens Absentee Voting Act of 1986 (Pub-
lic Law 99-410). The purpose of FVAP is to help members of the United States
Uniformed Services, family members, and nonmilitary American citizens residing
abroad to participate in primary and general elections when they are unable to vote in
person at the polls. Defense is the lead agency for FVAP, and the Department imple-
ments FVAP for over 3.8 million nonmilitary American citizens residing abroad.

    The purpose of this review was to determine how well the Department and
voting assistance officers have implemented FVAP in support of American citizens
abroad; what impediments, if any, there are to the Department’s implementation of
FVAP; and how the Department can improve FVAP services, including mail, for all
American citizens supported by our posts abroad.

     OIG found that the Department’s policies, procedures, and implementation of
FVAP, in partnership with nongovernmental organizations (NGOs), are generally
meeting the absentee voting needs of American citizens abroad. Post voting
assistance officers received favorable overall satisfaction ratings of 75 percent by
those U.S. Government and private American citizens polled by OIG. OIG found,
however, that the Department’s implementation of FVAP needs improvement,
specifically its outreach to nonmilitary American citizens abroad. Additionally, the
Department’s FVAP planning, funding, and training have not adequately prepared
it to provide voter assistance to the 3.8 million nonmilitary Americans residing
abroad. Of the 136 posts responding to OIG’s absentee voting survey only 18
indicated that their voting assistance officers had received Defense Federal Voter
Assistance program training.

      OIG’s review of the military postal system and the Department’s diplomatic
mail and pouch support to posts abroad resulted in OIG’s finding no evidence to
support assertions that the lack of postmarks caused many absentee ballots to be
disqualified by local election officials. GAO has testified that its limited review of the




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   37 .
        military postal system and postmarking procedures after the election did not indicate
        that either missing postmarks or the lack of timeliness of mail delivery represented a
        systemic problem.

            Among a number of recommendations, the OIG urged the Department to
        position itself for a more active role in FVAP implementation by structuring, plan-
        ning, and programming for increased outreach to American citizens abroad, by
        identifying its FVAP training needs, and by developing FVAP instructors of its own
                                                      unilaterally to train or assist Defense
                                                      FVAP instructors in training Depart-
                                                      ment and NGO voting assistance
                                                      officers abroad. OIG also recom-
                                                      mended that the Department acknowl-
                                                      edge the contributions of NGOs in
                                                      providing absentee voter assistance
                                                      abroad and foster increased cooperation
                                                      in the future.

                                                         A related but separate project was
                                                      a review of the mail support for the
                                                      FVAP. OIG evaluated the Department’s
                                                      FVAP services during the 2000 elec-
                                                      tions and identified ways those services
                                                      could be improved. Specifically, OIG
                                                      reviewed the Department’s mail and
                                                      pouch service used to transport absen-
         Sample post outreach material, coordinated   tee ballot material for authorized public
          and implemented with nongovernmental        and private American citizens residing
                      organizations.                  abroad. OIG found no systemic prob-
                                                      lems with the mail and pouch system.
        We found, however, that a lack of mail forwarding procedures resulted in up to four
        month delays in processing mail for personnel who had departed a post. OIG also
        found that the Department’s guidelines for mailing absentee voting materials to the
        United States restricted authorized use by private American citizens abroad.

             OIG recommended that the Department develop and implement guidelines to
        establish procedures for forwarding mail that include a locator system, maximum
        processing times by which mail must be forwarded, and internal controls to ensure
        that mail is expeditiously forwarded. We also recommended that the Department
        update the Foreign Affairs Manual to communicate clearly that private American
        citizens can use the Department’s diplomatic mail and pouch system to return
        absentee voting materials to the United States.


38 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Review of Mission Counternarcotics
Activities in Bolivia/Ecuador (01-FP-PM-087)

OIG reviewed counternarcotics programs and activities under the umbrella of Chief
of Mission oversight at Embassies La Paz and Quito. The review focused on Chief
of Mission oversight, direction, and coordination of in-country counternarcotics
activities; interagency coordination and communication; counternarcotics assistance
programs and activities, particularly coordination and oversight of assistance pro-
grams, law enforcement activities, and public diplomacy; personnel and budgetary
resources available to the Chief of Mission; and regional issues, including coordina-
tion and communication among the regional embassies and with Washington.

    In Bolivia, the team found an Embassy committed to implementing a far-reach-
ing counternarcotics strategy focused on both eradication and interdiction. How-
ever, serious challenges lie ahead, as Bolivia faces a period of political uncertainty
with President Banzer’s passing from the political scene. During this difficult transi-
tion period, the Embassy needs a more structured approach to coordination between
the programs of INL and USAID, and leadership continuity in the Narcotics Affairs
Section (NAS).

    In Ecuador, counternarcotics have traditionally been a secondary priority. How-
ever, program growth under the Andean Regional Initiative (ARI) and the presence
of the Manta Forward Operating Location demand a readjustment in Mission
priorities. The review cites a need to strengthen the NAS, to upgrade the Mission
priority accorded to counternarcotics, and to develop a more effective approach for
dealing effectively with the Ecuadorian military’s reluctance to accept a primary
counternarcotics role.

    In the Washington arena, INL and the Bureau for Western Hemisphere Affairs
have provided effective and energetic interagency leadership. In order to implement
the ARI, OIG recommends that both bureaus consider a more structured approach
and possibly new mechanisms for interagency coordination. INL should also con-
sider assigning a full-time senior level ARI coordinator.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   39 .
                                      AUDITS



Senior Management Attention Needed to
Ensure Effective Implementation of the
Government Information Security Reform
Act (01-IT-M-082)

In response to the Government Information Security Reform Act (GISRA), Public
Law 106-398, OIG performed an independent evaluation of the information secu-
rity program and practices of the Department. GISRA provides: (1) a comprehen-
sive framework for establishing and ensuring the effectiveness of controls over
information resources; and (2) a mechanism for improved oversight of Federal
agency information security programs. The objective of our review was to determine
whether the Department is effectively implementing key requirements of GISRA,
including those pertaining to security planning and risk management, information
security roles and responsibilities, training, and performance measures.

    OIG’s evaluation of the effectiveness of the Department’s information security
program found mixed results. Specifically, OIG concluded that information security
weaknesses continue to threaten Department operations, both here and abroad. Both
OIG and DS evaluation reports over the past 2 years identified weak information
security management practices at dozens of overseas posts. For example, only 10 of
the 35 posts in one geographic region reviewed by OIG security teams in 1999 and
2000 were reported to have adequate information security procedures in place. Further,
according to OIG’s survey questionnaire, although 59 percent of the Depart-ment’s
371 systems are reported to have completed risk assessments, only 10 percent are
reported to have security plans, as required by GISRA. We recommended that the
Chief Information Officer (CIO), in coordination with DS, develop a strategy and
timetable for ensuring that all of the Department’s systems/applications address each
of the key system security elements identified in the report.

    The Department has made progress in implementing a key GISRA provision—
establishing the agency’s CIO as the central management focal point for information
security activities. On August 20, 2001, the Deputy Secretary of State issued a
Delegation of Authority to the CIO to administer the Department’s information


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   41 .
        security program. The CIO’s new role as the administrator of this program estab-
        lishes the central management focus on information security that is required by the
        law and puts the Department in a better posture to protect information technology
        assets from security risks.

            OIG also found that the Department has not developed performance measures
        for its information security program, which are required by both GISRA and GPRA.
        In response to a draft of this report, the Under Secretary for Management’s office
        said that by October 15, 2001, the Bureau of Information Resource Management,
        working with DS, would develop measurable and meaningful performance measures
        for the Department’s information security program. This is important, because
        without usable performance measures, the Department is unable to assess the
        adequacy and effectiveness of information security policies and procedures and is
        hindered in its efforts to implement a results-based information security manage-
        ment program. We recommend that the CIO ensure that program managers
        develop and use GPRA and GISRA performance measures in support of the
        Department’s information systems security program.




        Review of the Overseas Wireless Program
        (01-FMA-M-053)

        OIG reviewed the Department’s implementation of the Overseas Wireless Program
        (OWP) to determine the degree to which the OWP has improved the security envi-
        ronment at overseas posts. The specific objectives of this review were to determine
        whether: (1) the goals and objectives of the OWP were clear and achievable, (2)
        posts’ Emergency Action Plans (EAPs) effectively integrated the OWP, and (3) the
        Department obtained the best value to the Government in the procurement of
        products and services. OIG also assessed the degree of IRM’s compliance with the
        GISRA in implementing the OWP.

            The Department initiated the OWP in October 1998 in response to the terrorist
        attacks on U.S. Embassies Nairobi and Dar Es Salaam and to address prior OIG
        security inspections that recommended strengthening the Department’s overseas
        radio programs. OIG observed that the OWP program has improved the security
        environment overseas by creating dedicated Emergency & Evacuation (E&E) radio
        networks, adding encryption capability as a security enhancement, and providing
        newer and more robust equipment. IRM officials have generally established clear
        goals for the program and have worked vigorously for implementation. IRM officials
        have also incorporated performance measures into the OWP. Officials in the field


42 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
had differing opinions on how an E&E network with OWP equipment should work
and some skepticism that it was even necessary in some posts where risks are per-
ceived as lower. The OWP has not always led to fully implemented E&E programs
overseas. IRM’s plans to perform follow-up visits to OWP posts should help address
these concerns, but the regional bureaus and post management must take action as
well.

    Major recommendations include the one that IRM re-examine E&E radio
distributions to specific posts, and that the regional bureaus stress to posts the
importance of fully incorporating E&E procedures concerning the OWP into the
posts’ EAPs.




Critical Infrastructure Protection: The
Department Can Enhance Its International
Leadership and Its Own Cyber Security
(01-IT-R-044)

OIG reviewed U.S. Government efforts to ensure critical infrastructure protection
(CIP) for the United States and our allies in conjunction with a President’s Council
on Integrity and Efficiency assessment of implementation at several departments
and agencies of Presidential Decision Directive 63. Pursuant to this directive, the
Department is responsible for developing and implementing a CIP plan to protect its
critical facilities and information systems, and for serving as Foreign Affairs Func-
tional Coordinator. OIG’s assessment concluded that the Department has made
progress in meeting these responsibilities, but that further work remains to be done.

    Specifically, OIG reported that the Department’s:
 • International outreach strategy is unnecessarily constrained, and, does little to
    encourage the development of preventative measures needed to protect global
    critical infrastructure;
 • The CIP plan provided a suitable framework for addressing minimum-essential
    infrastructure. However, the plan does not address potential cyber vulnerabili-
    ties in foreign operations or in interagency connections (e.g., between the
    Foreign Service National Payroll System and the Treasury Department); and
 • Policies and programs concerning information security training awareness were
    not sufficient to ensure that employees are properly trained to protect the
    agency’s information systems.


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   43 .
           OIG has made a number of recommendations to strengthen the Department’s
        approach to CIP planning. Among other actions, the Department should:
         • Assess the vulnerability of the Department’s foreign operations to cyber-based
            disruptions;
         • Conduct security controls evaluations of all minimum-essential cyber infra-
            structures at least once every 3 years;
         • Strengthen information security training policies and procedures through
            changes to appropriate sections of the Foreign Affairs Manual; and
         • Expand the Department’s international outreach approach to include a wide
            range of friendly countries requesting such assistance.




        Review of Overseas Medical Operations
        (01-HR-M-036)

        OIG reviewed the Department’s overseas medical operations. OIG found that
        overseas medical professionals do a commendable job of providing health care and
        advice under difficult conditions. Additionally, the Office of Medical Services
        (MED) is currently working on several major initiatives to improve the health of
        Foreign Service employees and their family members. Nevertheless, OIG found
        several areas in which the Department could improve its management of the over-
        seas operations. For example, MED did not ensure that all clearances were updated
        after medical evacuations. As a result, there are employees at posts whose clearances
        are still pending. OIG also found that MED did not have adequate controls over all
        of its drugs and supplies. At the posts visited by OIG, controls to prevent the theft
        or misuse of narcotics and other controlled items were generally adequate. However,
        noncontrolled drugs and supplies were not always safeguarded. Finally, MED did not
        maintain copies of Post Medical Capabilities Reports and trip reports submitted by
        Regional Medical Officers. Thus, MED did not have an up-to-date picture of the
        conditions at all of its overseas health units.

             OIG found that the Department did not ensure complete and timely tracking of
        reimbursements for overseas hospitalizations. In these cases, employees are expected
        to file claims with their insurance carriers and then reimburse the Department. MED
        and the Bureau of Financial and Management Policy are not applying existing controls
        to ensure complete and timely reimbursement. Consequently, the Department has
        almost $1 million in open accounts receivable for FYs 1996-1999. OIG made several
        recommendations to improve the Department’s performance in this area.


44 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Need to Improve Internal Controls in the
Miami Passport Office (01-FMA-M-040)

OIG examined some serious deficiencies in the cashiering operations at the Miami
Passport Office as a result of an investigation requested by the Department’s Bureau
of Consular Affairs (CA). While OIG has initiated a more thorough review of other
domestic passport operations, including cashiering, OIG identified some internal
control weaknesses related to cashiering that were brought to management’s immedi-
ate attention.

    Overall, OIG found that internal control over cashiering at the Miami Passport
Office to be deficient. OIG found that a number of requirements included in the
CA policy manual were not being followed, such as reconciling receipts and proper
closeout procedures. In addition, OIG believes some issues were not sufficiently
covered in the manual, such as training and reconciliation of bank statements.

    CA has already made a number of improvements to internal controls at the
Miami Passport Office, including modifying the automated cash register system and
providing additional training. OIG commends these actions, and has provided
additional recommendations that we believe will further improve internal controls at
this facility.




Information Technology Vulnerability
Assessment at the Charleston Financial
Service Center (01-FMA-R-O78)

The Government Management Reform Act of 1994 (Public Law 103-356) requires
that the Department’s principal financial statements be audited annually. These audits
require, among other components, an assessment of the adequacy of the internal
control process for recording, accumulating, and reporting financial data. This, in
turn, requires an assessment of the security of the automated systems that process
financial data. At OIG’s direction, independent external computer specialists per-
formed a vulnerability assessment of information technology at the Charleston
Financial Service Center.

   Overall, the review found that the information technology security posture at the
Charleston Financial Service Center was excellent. The information systems security


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   45 .
        officer immediately corrected technical vulnerabilities identified during the assess-
        ment and immediately strengthened security engineering processes that required
        improvement. The recommendations contained in this report will serve only to
        enhance further the information technology security posture and strengthen security
        engineering practices.




        Review of Selected Awards to Project
        Harmony, Inc., for Activities in New
        Independent States (01-FMA-R-O80)

        As part of an overall effort to review Freedom Support Act assistance to the New
        Independent States (NIS), OIG examined 20 grants totaling about $15 million
        awarded by the former United States Information Agency (USIA) and the
        Department’s Bureau of International Narcotics and Law Enforcement Affairs
        (INL) to Project Harmony, Inc. OIG reviewed costs claimed for FY 1995 through
        July 30, 2000. The primary purpose of this audit was to determine whether Project
        Harmony adequately (1) accounted for Federal funds, (2) complied with applicable
        Federal laws and regulations related to the terms and conditions of the agreement,
        and (3) evaluated its NIS programs. At the request of the INL grants officer, OIG
        also reviewed the grantee’s indirect cost structure and methodology for claiming
        reimbursement of indirect expenses. OIG found the following:
         • Project Harmony did not adequately account for Federal funds. Specifically, the
            grantee did not record or allocate administrative costs to Federal grants based
            on actual costs incurred. The grantee also overcharged Federal awards for
            travel costs that were not actually incurred. OIG noted inaccuracies and incon-
            sistencies between the financial data recorded in the grantee’s official account-
            ing records and the amounts reported in the certified financial reports and its
            annual single audit reports. As a result, we questioned costs totaling approxi-
            mately $8,127,683 million. Of that amount, $272,297 was unallowable under
            terms and conditions of the grant and, $7,855,386 was classified as unsup-
            ported because of either inadequate or no documentation.
         • Internal controls were deficient. Weaknesses included inadequate cash controls,
            bank balances that exceeded insured amounts, lack of written accounting
            policies and procedures, and a lack of separation of duties within the organiza-
            tional structure.




46 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
 • Project Harmony did not comply with applicable regulations and agreements.
    For example, Project Harmony failed to meet requirements for cost sharing,
    timesheets, travel expense reports, and indirect costs. There were also inad-
    equate property control records and incomplete personnel records.

    OIG recommended that the Bureau of Educational and Cultural Affairs and
INL require Project Harmony to reimburse the Department for unallowable costs
and provide additional documentation for the unsupported costs. In addition, the
grant officer should continue monitoring Project Harmony to ensure accountability
of Federal funds and compliance with grant regulations.




Survey of the Worldwide Purchase
Card Program – Domestic Operations
(01-FMA-M-081)

OIG performed a survey of the domestic operations of the Department’s World-
wide Purchase Card Program (WPCP). The objectives of this survey were to deter-
mine how effectively the Department has implemented the WPCP domestically and
whether the WPCP was achieving cost savings. OIG also examined whether the
Department has established appropriate performance goals and measures in accor-
dance with GPRA in regards to the WPCP. OIG also analyzed overall statistical
trends in the WPCP from FY 1996 through FY 2000.

    OIG found that the WPCP has experienced rapid growth and Department
customers have received goods and services more quickly as a result of the program.
The Department has also established performance measures for the WPCP in
accordance with GPRA—cost savings, increases in the dollar amount of purchase
card transactions, and increases in the number of purchase cardholders. Also, for
those transactions where OIG found sufficient documentation to analyze the pro-
curements, Department personnel have generally complied with Department regula-
tions in using purchase cards.

    However, OIG found that some program improvements were needed. While the
number of cardholders has dramatically increased, part of this growth was appar-
ently in purchase card users who made infrequent or no transactions. Also, about 12
percent of the domestic transactions reviewed by OIG lacked required documenta-
tion for OIG to verify independently that the purchases were properly made and
reconciled in a timely manner. Further, responsible officials interviewed by OIG had
not conducted required annual reviews of their offices’ WPCP operations. OIG also


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   47 .
        found that the Department’s method for determining cost savings—the reduction in
        the number of paper purchase orders processed—does not necessarily capture the
        actual administrative cost reductions that have occurred. Finally, OIG found inappro-
        priate procurement practices that, if changed, could yield additional cost savings for
        the Department.

            Recent Department guidance on the WPCP should help address the documenta-
        tion and annual review issues, but our report recommends that additional steps be
        taken. Our report also contains recommendations for the Department to examine
        low purchase card usage, clarify its reporting on cost savings from the program, and
        explore additional cost avoidance measures.




        Review of Awards to Iraqi National Congress
        Support Foundation (01-FMA-R-092)

        OIG, in conjunction with the Bureau of Administration, Office of Acquisitions,
        examined two grants totaling about $4.3 million awarded by the Department’s
        Bureau of Near Eastern Affairs (NEA) to the Iraqi National Congress Support
        Foundation (INCSF). OIG reviewed costs incurred for the period March 31, 2000,
        through May 30, 2001, to determine whether INCSF (1) had adequate controls to
        ensure that Federal funds were properly accounted for and spent for the intended
        purpose of the agreements, and (2) complied with applicable Federal laws and
        regulations. OIG found that:
         • Significant improvements in accountability were needed to ensure that Federal
            funds were properly accounted for and spent for the intended purpose of the
            agreements. We found that INCSF’s accounting system was not integrated to
            identify, collect, process, and promptly report financial information. For exam-
            ple, the London and Washington offices used substantially different accounting
            systems, charts of accounts, and bases of accounting that prevented consolida-
            tion of organization-wide financial statements.
         • Internal controls were deficient. Weaknesses included a lack of signature
            authority by INCSF leadership for a separate bank account at the Washington
            office as required by INCSF bylaws; lack of written accounting policies and
            procedures; lack of separation of duties within the organizational structure;
            and bank balances that exceeded insured amounts.
         • INCSF did not comply with applicable regulations and agreements. As a result,
            OIG questioned costs totaling about $2.2 million. Of that amount, $113,794 was


48 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
    unallowable under terms and conditions of the agreement and $2,107,093 was clas-
    sified as unsupported because of either inadequate or no documentation. Unallow-
    able costs, for example, included legal and court costs incurred for breach of     con-
    tract related to its office space in a residential building. Other issues included
    noncompliance with U.S. tax reporting requirements and Office of Management
    and Budget Circulars and Federal Travel Regulations, including lack of adequate
    timesheets, and inadequate property management and personnel management.

   OIG recommended that the NEA grants officer require INCSF to reimburse the
Department for unallowable costs and provide additional documentation for the
unsupported costs.




Review of Financial Management Issues at
the Organization for Economic Cooperation
and Development (0l-FMA-M-O93)

In response to a request from the then Chairman, Subcommittee on Commerce,
Justice, State, and the Judiciary of the Senate Committee on Appropriations, OIG
conducted a review of financial management issues at the Organization for Eco-
nomic Cooperation and Development (OECD). The request noted concerns raised
by the work of an outside audit firm, as well as reported allegations of missing bank
accounts and cash.

    OIG was asked to assess the magnitude of the problems and to review the
OECD’s progress in implementing financial management reforms. OIG assessed the
extent, scope, methodology, and results of the audit firm’s work, as well as a subse-
quent audit performed by another outside audit firm of OECD’s FY 2000 balance
sheet. Subsequent to issuing its draft report, the audit firm advised the OECD that
while OECD’s accounting was out of date and lacked clear standards, the term
“misappropriation” in the draft report meant misclassification, not unauthorized
expenditure. Further, the firm auditing OECD’s FY 2000 balance sheet identified no
such problems. In addition, OIG conducted extensive interviews of OECD and U.S.
Mission officials, and reviewed and analyzed relevant reports and documents. OIG
did not conduct an audit of OECD accounts, however.

    OIG found no evidence of misappropriation of funds or fraud within OECD
accounts, or missing bank accounts, either as a result of OIG work or the work of
the outside audit firms.



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   49 .
                                                          OECD has made significant
                                                     progress in strengthening its internal
                                                     controls over OECD operations and
                                                     accounting procedures, including the
                                                     implementation of a new financial
                                                     system. OECD recognizes that there is
                                                     work yet to be done to complete the
                                                     reforms. In addition to the reforms
                                                     already underway, OIG recommended
                                                     that the U.S. Mission seek to have
               OECD Chancery
                                                     OECD institutionalize annual external
                                                     audits of its financial statements to
        include the balance sheet, income statement, and statement of cash flows. OIG also
        recommended that OECD establish an audit committee, and expand and refine the
        internal audit function. The former Ambassador to the U.S. Mission communicated
        these recommendations to the Secretary-General and the OECD Council on June
        18, 2001, in her farewell remarks.




        Foreign Service Retirement and Disability
        Fund Financial Statements for FY 2000
        (01-FMA-R-014)

        An independent external contractor audited the Foreign Service Retirement and
        Disability Fund’s (FSRDF) Financial Statements for FY 2000 to report on whether
        the financial statements are fairly presented, to determine whether the FSRDF has
        an internal control structure that provides reasonable assurance of achieving internal
        control objectives, and to determine whether FSRDF complied with applicable laws
        and regulations. FSRDF is a trust fund that provides pensions to retired and disabled
        members of the Foreign Service. For FY 2000, FSRDF reported assets of $10.7
        billion and an actuarial unfunded pension liability of $669.5 million.

            The contractor found that the financial statements were presented fairly in all
        material respects. The audit did not identify any internal control weaknesses or
        instances of noncompliance with laws and regulations that were considered neces-
        sary for disclosure.




50 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Review of the Accounting System of Delphi
International, Inc. (01-FMA-M-048)

OIG reviewed the accounting system of Delphi International, Inc., (Delphi), a
grantee of the Department’s Bureau of Educational and Cultural Affairs (ECA).
OIG examined the accounting system utilized by Delphi to record costs under grants
awarded by the former USIA. OIG also reviewed activity related to Delphi’s proce-
dures for requesting cash advances under Federal grants. The review was made solely
to assist the Department in evaluating the adequacy and accuracy of Delphi’s ac-
counting system and appropriateness of its requests for advances. Specifically, ECA
requested this review to assist in making a determination as to whether to place this
grantee on the Department of Health and Human Services’ Payment Management
System.

    OIG concluded that Delphi’s accounting system was basically adequate for
accumulating and reporting costs incurred under Federal grants. OIG did note,
however, inaccuracies between the financial data recorded in the grantee’s official
accounting records and the amounts reported in the quarterly financial reports. In
addition, the analysis of Delphi’s requests for cash advances disclosed significant
variances between the amounts requested and the corresponding amounts incurred
in the period covered by the request. Therefore, OIG is recommending that the
ECA grants officer not place Delphi on the Payment Management System.




Review of Inter-Con Security Systems, Inc. Billing
Procedures Under the U.S. Department of State Contract
No. S-OPRAQ-96-0569 (01-FMA-M-051)

At the request of the OIG, certified public accountants reviewed Inter-Con Security
Systems, Inc. (Inter-Con) billing procedures under Department Contract No. S-
OPRAQ-96-0569. Under the contract awarded on May 6, 1996, Inter-Con provided
uniformed armed and unarmed guard services to DS for Department offices and
facilities in the greater Washington, D.C., area and other domestic locations. The
contract was a “time and materials” contract with an estimated amount of $68
million between January 6, 1997, and June 5, 2001. This limited scope review dis-
closed the erroneous payment of higher rates than required under the contract for



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   51 .
        request orders designated as temporary additional services. OIG estimated that
        overpayments could total $4.6 million since the start of the contract.




        United States Information Agency’s
        Balance Sheet as of September 30, 1999
        (01-FMA-R-083)

        OIG’s independent external contractor audited the USIA balance sheet as of Sep-
        tember 30, 1999, to report on whether the balance sheet fairly presented the financial
        position in accordance with generally accepted accounting principles. The audit also
        examined whether USIA had an internal control structure that provided reasonable
        assurance of achieving internal control objectives and complied with applicable laws
        and regulations. This audit was limited to the portion of USIA that was transferred
        to the Department as of October 1, 1999.

             The contract audit found that the balance sheet was presented fairly in all mate-
        rial respects, except for the Fund Balance with Treasury account. The audit found
        that USIA was unable to reconcile the fund balance from the general ledger to the
        fund balance reported by the Department of Treasury and therefore used the
        amount reported by the Department of Treasury on its financial statements. In
        addition, the report identified concerns about USIA’s financial and accounting
        system, which are both an internal control weakness and an issue of noncompliance
        with several laws and regulations including the Budget and Accounting Procedures
        Act and the Federal Managers’ Financial Integrity Act.




52 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                             INVESTIGATIONS



Conflict of Interest

OIG conducted an investigation into allegations that a former U.S. Ambassador
violated conflict of interest laws by contacting a United States embassy on behalf of
his new employer within the first year after he retired from the Department. As a
result of the investigation, the former Ambassador signed a settlement agreement
with the Department of Justice, Public Integrity Section, and has paid the U.S.
Government $10,000 to resolve allegations that he violated federal post-employment
restrictions. (99-006)




Employee Misconduct

OIG conducted an investigation into allegations that a senior Department employee
violated nepotism regulations by attempting to intervene in a promotion decision on
behalf of a family member. As a result of the investigation, the Bureau of Human
Resources issued a Letter of Reprimand that is to remain in the employee’s official
personnel folder for one year. (01-013)




Customs Violation

OIG conducted an investigation into allegations that a Foreign Service Officer
transported monetary instruments in excess of $10,000 into the United States in
violation of 31 U.S.C. Section 5316(a). This matter was declined for criminal pros-
ecution and referred to the Bureau of Human Resources. The Bureau of Human
Resources issued a Letter of Admonishment to the employee. (96-067)



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   53 .
        Visa Fraud

        OIG opened an investigation in September 2000, based upon information developed
        in a proactive investigation that an immigration attorney in New York was involved
        in the submission of multiple fraudulent applications to the Diversity Immigrant
        Lottery (DV) Program. The New York office of the Immigration and Naturalization
        Service (INS) was advised of this information, and agreed to participate in the
        investigation.

            Record reviews established that the immigration attorney had submitted multiple
        DV applications on behalf of clients for several years, using slight variations in the
        spelling of the name on each application. The reviews also established that a sub-
        stantial number of the attorney’s clients had been selected as “winners” of the
        lottery. The investigating agents recorded conversations between the immigration
        attorney and two separate cooperating informants.

            On August 20, 2001, the attorney was arrested on felony charges of visa fraud,
        mail fraud, and conspiracy. A search warrant for his office was executed on the same
        date. Resolution of these criminal charges was pending at the end of this reporting
        period. (00-095)



                              OIG Special Agents Commended
                                for Interagency Assistance

            OIG special agents received a letter of appreciation from the Deputy
            Inspector General of the Department of Defense lauding the “extraordinary
            professionalism and dedication” the agents displayed while providing
            assistance following the terrorist attack at the Pentagon on September 11,
            2001. The letter noted the agents’ tireless efforts, working around the clock
            in hazardous material protective gear, to identify victims and to recover
            evidence essential to the criminal investigation of the attack.

                On another, unrelated matter, two OIG special agents responded to a
            request for investigative assistance this past April from the Inspector
            General of the Peace Corps. In a letter of appreciation, the Peace Corps
            Inspector General praised the timely, thorough, and professional manner
            in which the special agents conducted the highly sensitive investigation,
            which was concluded in June.




54 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Geographic Distribution of Investigations*



               Western Hemisphere – 11 cases, 12%

          Domestic                                Europe – 4 cases, 5%
          59 cases,
            66%                                 Near East              South Asia
                                               2 cases, 2%             1 case, 1%
                                                                                         East Asia and
                                                                                             Pacific
                                                       Africa                             7 cases, 8%
                                                      5 cases,
                           Latin                         6%
                         America
                         0 cases,
                            0%


                                           Boundary representations are
                                           not necessarily authoritative.

          (*Reflects combined ongoing investigative activities for the Department of State and BBG.)




In January 2001, OIG opened a joint investigation with INS, Newark, NJ, predi-
cated upon information provided by a cooperating informant, who indicated that a
Turkish national residing in New Jersey was charging customers $5,000 to $6,000 for
documentation that would enable them to receive C-1/D-1 transit/crewmen visas.
    The investigation determined that two associates of the Turkish national, operat-
ing in Miami, FL, had generated numerous letters to U.S. consulates falsely stating
that a cruise line had contracted to employ various aliens as crewmen. The people
who produced these letters used the letterhead of a cruise line that had not operated
in the United States for some time. Numerous aliens fraudulently obtained visas and
entered the U.S. through this scheme. On August 9, 2001, the Turkish national was
arrested on felony charges, and a search warrant for his office was executed. He
agreed to cooperate in the investigation. (01-021)


OIG opened a joint investigation in January 2001 with INS and the SSA, Office of
Inspector General, based upon information that substantial numbers of foreign
nationals from several African countries had been providing passports containing
counterfeit work-authorized visas to Social Security offices in the Richmond and


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001           55 .
                  Norfolk, Virginia areas, in order to obtain work-authorized Social Security cards.
                  The investigating agents conducted record reviews that identified approximately 80
                  such foreign nationals who had presented these counterfeit visas to Social Security
                  offices.
                      The investigation developed evidence that a Guinean national residing in Virginia
                  was involved in the sale of these counterfeit visas. On June 12, 2001, this person was
                  indicted on seven felony charges of visa fraud, and of shielding illegal aliens from
                  detection. He subsequently provided a videotaped confession, and pleaded guilty to
                  visa fraud on September 14, 2001. As part of the plea agreement, this person agreed
                  not to contest removal from the U.S. after serving any sentence. Sentencing was
                  pending at the end of this reporting period. (01-031)




                  Theft

                  In October 2000, the OIG opened a joint investigation with the U.S. Customs
                  Service based upon information that an employee was stealing Department com-
                  puter hardware/software and selling it overseas. Customs provided OIG with com-
                  puter hard drives that the employee had previously tried unsuccessfully to mail
                  overseas. A forensic review of the computers’ hard drives by the Customs
                  Cybertech Office identified various classified documents on one of the hard drives.

                                                                 Subsequent record reviews determined
Types of Cases*                                             that the employee in question had made
                                                            numerous false statements on his application
    Passport & Visa Fraud, 48%
                                                            for federal employment. Specifically, it was
                                                            determined that the employee had not
    Employee Misconduct, 19%
                                                            received an honorable discharge from the
                                                            military, had not obtained a degree from the
    Miscellaneous Theft, 8%
                                                            academic institution listed on the application
                                                            form, and had previous felony arrests for
    False Statements and Claims, 6%
                                                            theft.
    Contract & Procurement Fraud, 12%                           In January 2001, OIG obtained and
                                                            executed a search warrant on the employee’s
    All Other, 7%                                           house. The warrant resulted in the seizure of
                                                            several computer-related items, software and
0           10         20        30         40        50    documentation. The employee was inter-
    (*Reflects combined ongoing investigative activities    viewed and admitted to computer and
           for the Department of State and BBG.)
                                                            property thefts valued at approximately


    56 .         Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
$20,000. However, the employee stated that he was not aware that the stolen hard
drive contained classified information. The employee also admitted to making false
statements concerning the background information he provided to the Department
to obtain employment.

    On June 5, 2001, in the U.S. District Court of the District of Columbia, the
employee pleaded guilty to one count of theft of government property and unautho-
rized removal of classified materials. Sentencing has been scheduled for October 11,
2001. (01-012)



Follow Up Actions:


Embezzlement

OIG conducted an investigation into allegations that a Foreign Service officer wrote
bad checks to the U.S. embassy where the officer was assigned. The total monetary
loss to the government was determined to be $14,713. The officer was sentenced in
U.S. District Court on January 9, 2001, to 3 years of supervisory probation, 4 months
of home detention, and full restitution to the U.S. Government. On September 5,
2001, the officer was notified by the Director General of the Foreign Service of
being “separated from employment” with the Department of State. (See OIG Semian-
nual Report October 1, 2000, to March 31, 2001, pp 47-48) (99-037)




Visa Fraud

OIG opened an investigation in April 1998, based upon information that officers of
a company based in Northern Virginia were engaged in a large-scale scheme to
defraud the EB-5 investor visa program. Under this program, U.S. immigrant visas
may be issued to foreign nationals who invest at least $500,000 in a business that
creates jobs in high unemployment areas of the United States.

    This joint investigation with INS and IRS developed evidence that company
principals had been involved in submitting numerous fraudulent visa petitions, as
well as other false statements to the Government, and that they had taken funds



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   57 .
        obtained from alien customers, which were to be invested, for their own use. Little,
        if any, money was invested in U.S. businesses, and few, if any, jobs were created.
             In August 2000, the two principal officers of the company were charged in a 61-
        count indictment with visa fraud, conspiracy, money laundering, false tax returns,
        failure to file, and bankruptcy fraud. The defendants represented themselves in a
        bench trial (no jury) during March and April 2001. The Government estimated that
        the defendants took in approximately $21 million through this scheme. On August
        16, 2001, the Court found the defendants guilty of all charges in the indictment.
        Sentencing is scheduled for November 2, 2001.
            An immigration attorney in Miami, FL, who had been involved with these two
        principal officers in some aspects of this scheme, pleaded guilty to one felony count
        of visa fraud, and agreed to cooperate in the investigation. He testified as a Govern-
        ment witness at trial. In April 2001, he was sentenced to 14 months’ imprisonment,
        was fined $2,000, and was ordered to make restitution of $838,500 to clients he had
        defrauded in connection with this scheme. (See OIG Semiannual Report, April 1 to
        September 30, 2000, pp. 30-31) (98-079)


        OIG has been conducting a joint investigation with INS, IRS, and the SSA, Office of
        Inspector General, since August 1999, based upon information that a network of
        people was engaged in a scheme involving visa fraud, alien smuggling, and money
        laundering. This group, operating in several parts of the United States and in the
        Czech Republic, was engaged in a conspiracy to profit from the employment of
        unauthorized alien workers in the United States.
            The investigation determined that the group assisted foreign nationals in obtain-
        ing nonimmigrant visas from U.S. Consulates by misrepresenting the true purpose of
        the travel, and by providing fraudulent documentation in support of visa applica-
        tions. Once in the United States, many of these foreign nationals were provided
        with counterfeit H1-B visas, which authorize employment. These fraudulent visas
        were then used to obtain Social Security cards and other identity documents.
            Four Czech nationals, who had been living in the United States, entered guilty
        pleas to felony charges in U.S. District Court in Norfolk, Virginia, in February 2000.
        One of these people, who had pleaded guilty to conspiracy to launder monetary
        instruments, was sentenced to 84 months’ incarceration, and was ordered to forfeit
        $136,763 in seized assets. The other three people received lesser sentences.
            In March 2001, a Slovak national was charged in a 15-count indictment with visa
        fraud, money laundering, wire fraud, and inducement of an alien to enter the United
        States illegally. In June 2001, this person was arrested in the Czech Republic in



58 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
connection with these charges. His extradition to the United States was pending at
the end of this reporting period.
    In June 2001, two Slovak nationals residing in Florida were arrested, and subse-
quently pleaded guilty in Norfolk, Virginia, to charges of knowingly employing ten
or more aliens. Sentencing for both people was pending at the end of this reporting
period.
    On July 25, 2001, a naturalized U.S. citizen residing in Florida was indicted on
charges of conspiracy to launder monetary instruments. An associate of this person,
also residing in Florida, was indicted on charges of inducing aliens to enter or reside
in the United States. (See OIG Semiannual Report October 1, 2000, to March 31, 2001, p.
52-53) (99-072)


In October 2000, OIG opened a joint investigation with INS, based upon informa-
tion that a Costa Rican national residing in New Jersey was manufacturing and selling
machine-readable visas from his residence. Based upon evidence developed in an
undercover operation, the investigators obtained a search warrant for this person’s
residence. During the execution of this warrant, the subject’s computer was seized,
along with account ledgers, counterfeit visas, social security cards, and other documen-
tation and equipment. On November 1, 2000, the subject was charged with felony
violations of visa fraud, immigration document fraud, and social security fraud.
He was ordered detained without bail. On May 31, 2001, he pleaded guilty to several
felony counts of document fraud. On September 28, 2001, the subject was sen-
tenced to 19 months of incarceration, and three years of supervised probation. (See
OIG Semiannual Report, October 1, 2000 to March 31, 2001, p. 48) (01-002)


OIG opened a joint investigation with INS in January 2000, based upon information
that student visas had been issued to a substantial number of Chinese nationals,
based upon fraudulent certifications that these people were students at a university in
New England. The university advised that these people were in fact, not students,
and that the documents were fraudulent.
     The investigation determined that a group of Chinese nationals based in New
York was operating this scheme. Evidence showed that this group had obtained
fraudulent student visas for approximately 300 foreign nationals by providing fraudu-
lent certifications purporting to show attendance at more than 20 different universi-
ties and colleges. The group was also involved in obtaining fraudulent visas by
preparing false petitions for employment. In November 2000, two Chinese nationals
were arrested in New York on charges of visa fraud in connection with this scheme.
On July 17, 2001, one of these persons pleaded guilty to a felony charge of visa



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   59 .
        fraud; sentencing was pending at the end of this reporting period. Plea negotiations
        were continuing with the other people. (See OIG Semiannual Report, October 1, 2000 to
        March 31, 2001, p. 50) (00-036)




        Theft

        OIG opened an investigation in June 1999 based upon information provided by DS
        indicating that a passport examiner at the New York Passport Agency had been
        involved in the theft of passport fees. The OIG investigation determined that the
        employee had used several different methods to steal application fees over a period
        of approximately two years. The passport examiner was terminated from employ-
        ment in August 1999.

            In July 2000, the former employee was charged with a felony violation of theft
        of public money. On March 26, 2001, this person pleaded guilty to this charge in
        U.S. District Court for the Southern District of New York. On July 27, 2001, the
        former employee was sentenced to four months of home detention, three years of
        probation, and $21,000 in restitution. (See OIG Semiannual Report, October 1, 2000 to
        March 31, 2001, p. 54, and OIG Semiannual Report, April 1 to September 30, 2000, p. 32)
        (99-059)



        Hotline
                    The OIG Hotline, operated by the Office of Investigations, is a prompt,
                    effective channel for employees and others to report incidents of fraud,
                     waste, abuse, and mismanagement to the Inspector General. Below is a
                      summary of Hotline activity for the agencies for which OIG has
                       oversight.
                             Total allegations received                       172
                             Held for action within OIG                        42
                             Referred to other offices for action             117
                             Not substantiated – no action necessary           13




60 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
              APPENDIX 1: INVESTIGATIVE ACTIVITIES1

Workload                                                         Total Judicial Actions                              46
Cases pending 3/31/01                           109
                                                                 Criminal
New cases opened                                 21
                                                                 Prosecutive referrals                               8
Cases closed                                     41
Cases pending 9/30/01                            89              Prosecutive declinations                            8
                                                                 Prosecutive dismissals                              0
Preliminary inquiries pending 3/31/01             22             Acquittals                                          0
Prelim opened                                     51             Indictments2                                       11
Prelim closed                                     54             Convictions                                       10
Prelim converted to cases                          4             Sentencings                                         6
Preliminary inquiries pending 9/30/01             19
                                                                   Time sentenced                           16 months
Total Administrative Actions                       8               Time probation                             14 years
                                                                 Court-ordered fines                          $12,500
Admonishments                                      0             Court-ordered restitutions                  $376,834
Counseling                                         0
Curtailment                                        0
                                                                 Civil
Demotions                                          0
Reimbursements                                     0             Referrals                                               1
Reprimands                                         1             Declinations                                            2
Resignations                                       0             Complaints                                              0
Suspensions                                        1             Judgments                                               0
Terminations                                       0             Court-ordered fines                                     0
Administrative referrals                           6             Recoveries                                              0
PFCRA3 referrals                                   0             Total judgments and recoveries                          0
Savings                                            0




                           Administrative recoveries4                  $       0
                           Judicial recoveries5                        $ 389,334
                           Total Investigative Recoveries              $ 389,334




         1
           This appendix reflects investigative statistics for the Department of State only. Please see page 79
   for investigative statistics related to BBG.
         2
           Indictments included formal criminal charges brought against a subject. The manner in which charges
   are brought varies from country to country.
         3
           Program Fraud and Civil Remedies Act.
         4
           Includes recoveries from administrative actions, such as reimbursements and savings.
         5
           Includes recoveries from judicial actions, including court-ordered fines and restitutions and civil judgments
   and recoveries.


         The statistics and narrative case descriptions of investigative activities appearing in this Semiannual Report
   to the Congress are the result of reports received from prosecutive and administrative authorities. The final
   actions may be changed at a later date by individual use of administrative and judicial appeals processes.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001                          61 .
                            APPENDIX 2: REPORTS ISSUED

 Security
 01-SIO-R-061        Audit of the Department’s Background Investigations                                   8/01
 01-SIO-R-085        Audit of the State Department’s Anti-Terrorism Assistance Program                     9/01
 01-SIO-R-043        Embassy Phnom Penh, Cambodia                                                          5/01
 01-SIO-R-042        Embassy Hanoi and Consulate General Ho Chi Minh City, Vietnam                         6/01
 01-SEC-R-005        U.S. Diplomatic Posts in the Bureau of European Affairs                               6/01
 01-SIO-R-044        Embassy Bandar Seri Begawan, Brunei                                                   7/01


 Security Annexes
 01-FP-R-011/A       Sarajevo, Bosnia-Herzegovina                                                          4/01
 01-FP-R-012/A       Embassy Bratislava, Slovakia                                                          4/01
 01-FP-R-020/A       U.S. Interests Section, Havana, Cuba                                                  5/01
 01-FP-R-021/A       Embassy Sofia, Bulgaria                                                               4/01
 01-FP-R-022/A       Embassy Caracas, Venezuela                                                            4/01
 01-FP-R-025/A       Embassy Dar es Salaam, Tanzania                                                       4/01
 01-FP-R-026/A       Embassy Nairobi, Kenya                                                                4/01
 01-FP-R-047/A       Embassy Djibouti, Djibouti                                                            7/01
 01-FP-R-049/A       Embassy Asmara, Eritrea                                                               6/01
 01-FP-R-056/A       Embassy Montevideo, Uruguay                                                           7/01
 01-FP-R-057/A       Embassy Lima, Peru                                                                    9/01
 01-FP-R-058/A       Embassy Asuncion, Paraguay                                                            7/01
 01-FP-R-063/A       Embassy Accra, Ghana                                                                  9/01
 Inspections
 01-FP-M-045         Review of Implementation of the Federal Voter Assistance Program                      9/01
 01-FP-R-046         Inspection of Embassy Algiers, Algeria                                                6/01
 01-FP-R-047         Inspection of Djibouti, Republic of Djibouti                                          7/01
 01-FP-R-049         Inspection of Embassy Asmara, Eritrea                                                 6/01
 01-FP-L-055         Review of Diplomatic Mail and Pouch Support for the Federal Voter
                     Assistance Program                                                                    9/01
 01-FP-R-056         Inspection of Embassy Montevideo, Uruguay                                             7/01
 01-FP-R-057         Inspection of Lima, Peru                                                              9/01




62 .        Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
01-FP-R-058         Inspection of Embassy Asuncion, Paraguay                                            7/01
01-HR-R-060         Compliance Followup Review of the Inspections of the Bureau of Human
                    Resources and The Foreign Service Institute                                         9/01
01-FP-R-063         Inspection of Embassy Accra, Ghana                                                  9/01
01-FP-R-065         Inspection of Embassy Libreville, Gabon                                             9/01
01-FP-R-066         Inspection of Embassy Lome, Togo                                                    9/01
01-FP-PM-087        Review of Mission Counternarcotics Activities in Bolivia/Ecuador                    9/01
01-FP-R-090         Inspection of Embassy Budapest, Hungary                                             9/01
01-FP-R-091         Inspection of Embassy Warsaw, Poland                                                9/01


Audits
01-FMA-R-014        Foreign Service Retirement and Disability Fund Financial Statements
                    for FY 2000                                                                         4/01
01-HR-M-036         Review of Overseas Medical Operations                                               7/01
01-FMA-M-040        Need to Improve Internal Controls in the Miami Passport Office                      8/01
01-IT-R-044         Critical Infrastructure Protection: The Department Can Enhance Its International
                    Leadership and Its Own Cyber Security                                               6/01
01-FMA-M-048        Review of the Accounting System of Delphi International, Inc.                       6/01
01-FMA-M-051        Review of Inter-Con Security Systems, Inc. Billing Procedures Under the U.S.
                    Department of State Contract No. S-OPRAQ-96-0569                                    6/01
01-FMA-M-053        Review of the Overseas Wireless Program                                             7/01
01-FMA-R-078        Information Technology Vulnerability Assessment at the Charleston
                    Financial Service Center                                                            9/01
01-FMA-R-080        Review of Selected Awards to Project Harmony, Inc., for Activities in the
                    New Independent States                                                              9/01
01-FMA-M-081        Survey of the Worldwide Purchase Card Program - Domestic Operations                 9/01
01-IT-M-082         Senior Management Attention Needed to Ensure Effective Implementation
                    of the Government Information Security Reform Act                                   9/01
01-FMA-R-083        United States Information Agency’s Balance Sheet as of September 30, 1999           9/01
01-FMA-R-092        Review of Awards to Iraqi National Congress Support Foundation                      9/01




         Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001          63 .
  APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES

                                          Table I
                          INSPECTOR GENERAL ISSUED AUDIT REPORTS1
                                  WITH QUESTIONED COSTS2


                                                             Number            (Dollars in Thousands)
                                                            of Reports Questioned Costs Unsupported Costs


   A.   For which no management decision has been
        made by the commencement of the reporting
        period                                                      9              7,067                385

        A1. Adjustment                                              0                  0                  0
        A2. Adjusted Balance                                        9              7,067                385

   B.   Which were issued during the reporting period               2             10,348              9,963

   Subtotals (A2 + B)                                               11            17,415             10,348

   C.   For which a management decision was made
        during the reporting period
        – based on formal administrative
           or judicial appeal
        (i) dollar value of disallowed costs                        0                   0                  0
        (ii) dollar value of costs not disallowed                   0                   0                  0


   D.   For which no management decision has been
        made by the end of the reporting period                     11            17,415             10,348

        Reports for which no management decision
        was made within 6 months of issuance                        9              7,067                385




   ––––––––––––––––––


     1
       Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Over-
   sight.    .
     2
       Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a
   law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expen-
   diture            of funds; a finding that, at the time of the audit, such costs are not supported by adequate
   documentation; or a finding that the expenditure of funds for the intended purpose is unnecessary or unrea-
   sonable.



64 .       Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                                Table II
                 INSPECTOR GENERAL ISSUED AUDIT REPORTS
          WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                       Number              Dollar Value
                                                                      of Reports         (in thousands)


A. For which no management decision has been made
   by the commencement of the reporting period                             5                1,541

B. Which were issued during the reporting period                           0                      0

     Subtotals (A + B)                                                     5                1,541

C. For which a management decision was made
   during the reporting period                                             0                      0

     (i) dollar value of recommendations that were
         agreed to by management                                           0                      0
         – based on proposed management action
         – based on proposed legislative action

     (ii) dollar value of recommendations that were
          not agreed to by management                                      0                      0

D. For which no management decision has been
   made by the end of the reporting period                                 5                1,541

     Reports for which no management decision
     was made within 6 months of issuance                                  5                1,541




––––––––––––––––––


 1
   A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
used more efficiently if Department management took actions to implement and complete the recommenda-
tions, including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of inter-
est subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing recom-
mended improvements related to the operations of the Department, a contractor, or a grantee; avoidance of
unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings
which are specifically identified.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001                       65 .
   APPENDIX 4: RESOLUTION                              OF    REPORTS & RECOMMENDATIONS


                           PREVIOUSLY REPORTED SIGNIFICANT AUDIT
                          RECOMMENDATIONS1 PENDING FINAL ACTION2

   Report  Rec. Report Title                                                                           First
   Number Number Recommendation Summary                                                              Reported



   3-PP-014      Maintenance and Repair of Buildings Overseas                                        3/31/94
            1.   Develop a system to identify and monitor the worldwide backlog of
                 maintenance and repair deficiencies, including determining an accept-
                 able level for the backlog and periodically updating the backlog for
                 corrective action taken, additional deficiencies identified, and improved
                 cost estimates.


   93-A-34/
   ARR-95-08 Grants Management Followup                                                              3/31/95
            5.   Require monthly reporting requirements on the project’s status.
            6.   Ensure that data in the grants system is reconciled with data in other
                 grant-related systems.


   APR-96-07 Exchange Visitor Information System                                                     3/31/96
            3.   Determine the feasibility of electronically transmitting J Visa data from
                 sponsor organizations to the EVIS database at USIA.




   ––––––––––––––––––


       1
      Includes audit recommendations reported as significant in semiannual reports prior to September 30, 2000,
   on which Department management has agreed to take corrective action but for which those actions are not yet
   complete.
     2
       Final action is recorded when a proposed course of action in response to a recommendation has been
   accepted by OIG and completed by management to OIG’s satisfaction.




66 .       Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                            SUMMARY OF AUDIT REPORTS
         WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



Management of Secure Communications (SIO/A-97-15), March 1997
Summary: OIG made 22 recommendations to the Director General of the Foreign Service and
         the Director of Personnel (now Human Resources) to require personnel, like IM
         specialists staff, who hold positions with access to bulk quantities of sensitive
         information to undergo a special counterintelligence screening process prior to each
         assignment. Three of the recommendations remain unresolved, which were assigned
         to the Director General of the Foreign Service.
Reason Unresolved: The Director General of the Foreign Service has not responded, formally or
          informally to the report and subsequent follow-up inquiries.
To be resolved by: December 2001


Management of Sensitive Compartmented Information Access (SIO/A-98-49) September
        1998
Summary: OIG made four recommendations to the Assistant Secretary for Intelligence and
         Research and the Director General of Personnel to document policy and procedures
         on how INR will process SCI access requests, arbitrate waivers and disputed
         decisions to include DS and the Bureau of Personnel (now Human Resources), and
         develop a reliable process for determining when SCI access authorizations terminate.
         Three of the four recommendations remain unresolved, which were assigned to the
         Assistant Secretary for Intelligence and Research.
Reason Unresolved: INR had advised OIG of its plan to respond to these recommendations.
          However, due to the Secretary of State’s transfer of authority for protection of SCI
          material from INR to DS, INR responded that it no longer has primary responsibility
          for these recommendations. In recent correspondence to DS and INR, OIG requested
          that DS work with INR to reach resolution for these recommendations.
To be resolved by: December 2001


Protective Services (SIO/A-99-29), June 1999
Summary: OIG made 25 recommendations to improve the protection provided to visiting digni-
         taries and foreign missions in the United States; 24 recommendations were made to
         DS, and 3 of these, which address centralizing all functions for the protection of
         foreign missions, transferring the authority for the ambassador’s protective detail, and
         implementing a policy restricting the number of days that agents work, remain
         unresolved.
Reason unresolved: DS has not responded to these recommendations since October 1999.
To be resolved by: December 2001


Overseas Telephone Systems Security Management (SIO/A-00-01), November 1999
Summary: OIG made 19 recommendations to find solutions to overseas telephone security risks;
         12 of these remain unresolved. Two of the unresolved recommendations were




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001        67 .
                              SUMMARY OF AUDIT REPORTS
            WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS


               assigned to the Chief Information Officer, and 10 of the unresolved recommendations
               were assigned to DS.
   Reason unresolved: OIG is working with DS and with the Chief Information Officer to reach
             resolution on all of the recommendations.
   To be resolved by: December 2001


   North/South Center (ARR-94-03), March 1994
   Summary: OIG recommended that USIA seek reimbursement of $1,507,261 in questioned costs,
            approximately $1 million of which resulted from an inequitable allocation of indirect
            costs to the Center. The Department of Health and Human Services, which has audit
            cognizance, established new indirect cost rates.
   Reason unresolved: The Department deferred action on about $480,000 in remaining ques-
             tioned costs pending further consultation with the Bureau of Educational and Cultural
             Affairs and awaiting additional information from the bureau.
   To be resolved by: December 2001


   International Institute of Wisconsin (CG-96-01), September 1996
   Summary: OIG made recommendations on questioned grant costs totaling $46,636 and internal
            controls and noncompliance issues.
   Reason Unresolved: The Department is seeking clarification and documentation from the
             grantee.
   To be resolved by: December 2001


   Review of Indirect Costs Rates Proposed by the Institute of International Education (CG-
               99-015), May 1999
   Summary: OIG made recommendations on questioned costs totaling $1,054.098 that resulted
            from an inequitable allocation in indirect costs.
   Reason Unresolved: The Department deferred a decision on the questioned costs pending
             completion of the appeal process.
   To be resolved by: Unknown, Under appeal.


   Sale and Leaseback Arrangement Proposed by the Institute of International Education
               (CG-99-016), May 1999
   Summary: OIG made recommendations on the sale and leaseback arrangement proposed by the
            grantee that did not constitute a sale and leaseback within the meaning of the OMB
            cost principles and projected Funds Put to Better Use of $4,300,000 over the life of
            the lease.
   Reason Unresolved: The Department deferred a decision pending completion of the appeal
             process.
   To be resolved by: Unknown; under appeal.




68 .     Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                            SUMMARY OF AUDIT REPORTS
         WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS


Washington Workshops Foundation (CG-99-025), September 1999
Summary: OIG made recommendations on questioned costs totaling $913,000 and internal
         controls and compliance issues.
Reasons Unresolved: The Department is seeking clarification from the grantee.
To be resolved by: December 2001


ACLS Supporting the Vietnam Fulbright Economics (CG-99-026), October 1999
Summary: OIG made recommendations on questioned costs totaling about $1.1 million and
         internal controls and compliance issues.
Reason Unresolved: The Department is seeking clarification and additional documentation from
          the grantee.
To be resolved by: December 2001


Town Affiliation Association of the U.S. (00-CG-019), July 2000
Summary: OIG made recommendations on questioned costs totaling about $908.812 and
         internal controls and compliance issues.
Reason Unresolved: The Department is reviewing additional documentation provided by the
          grantee.
To be resolved by: December 2001


The American Councils for International Education (00-CG-032), September 2000
Summary: OIG made recommendations on questioned costs totaling $1,186,847 and com-
         pliance issues.
Reason Unresolved: The Department is seeking clarification and additional documentation from
          the grantee.
To be resolved: December 2001




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   69 .
70 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
       BROADCASTING BOARD OF GOVERNORS


Security
During this reporting period, the Office of Security and Intelligence Oversight
issued a Security Compliance Follow-up Review for Radio Free Europe/Radio
Liberty, Prague, Czech Republic.



Inspections


Inspection of Sao Tome Transmitting Station
(01-FP-M-070)

The Sao Tome Transmitting Station began broadcasting Voice of America programs
in March 1996. Since February 1997, the station has been providing FM broadcasts
to local audiences. The station is self-sufficient. Its buildings and structures are
efficiently and effectively managed; the station has developed innovative and useful
solutions to common problems; and it has established smooth operations with port
and customs authorities.

    However, the station needed to address several staffing issues. OIG recom-
mended that the station and the International Broadcasting Bureau revise Sao Tome’s
staffing pattern, review salaries and sick leave policies for local employees, and
review position classifications and classification processes and policy. OIG also
recommended that the station determine the appropriateness of International
Cooperative Administrative Support System charges for community liaison office
services.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   73 .
        Audits


        More Guidance and Oversight Can Improve
        Broadcasting Board of Governors’ Web Site
        Privacy (01-IT-M-039)

        The Internet has emerged as a powerful tool for communicating large amounts of
        information on Federal activities and services. The Internet has also made it possible
        for web sites to track and collect personally identifiable data — such as a person’s
        name, e-mail address, Social Security number, or credit card number — making online
        privacy one of the key and most contentious issues in this information age.

            In response to requirements of Section 646 of the Treasury and General Gov-
        ernment Appropriations Act, 2001, OIG conducted a review of Internet privacy
        management at the Broadcasting Board of Governors (BBG). OIG focused the
        review on BBG’s practices regarding the collection of personally identifiable infor-
        mation through the use of “cookies” or other means on its public web sites. A
        cookie is a small text file placed on a site visitor’s computer hard drive by a web
        server, allowing a server to track online purchases, maintain and serve customized
        web pages, or build profiles on individual site visitors.

            BBG has not developed policies to ensure that its web sites are managed in
        accordance with Federal privacy guidelines prescribed by the Office of Management
        and Budget. Specifically, the guidelines restrict the use of persistent cookies on
        Federal Internet sites without compelling need, agency head approval, and posted
        notices to advise the public of any information collected on the sites and how that
        information is used. BBG recognizes that it needs to develop web privacy policies to
        help ensure compliance with Federal Internet management guidelines. Agency
        officials informed OIG that they recently began to develop a policy directive to
        ensure compliance with Federal guidelines for Internet privacy management within
        the International Broadcasting Bureau.

            In the absence of agency policies to help ensure web site privacy, OIG found
        two instances on the four web sites that OIG identified where BBG was using
        persistent cookies without proper authorization. In both instances, the web managers
        did not know that persistent cookies were being used. One of the cookies had been
        inserted through a commercial web development application as a convenient way of
        maintaining user preferences (i.e., graphics, screen color) as a user navigates from



74 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
one web page to another during a site visit. The second cookie was used for counting
visitors. Web managers agreed to take steps to remove or seek BBG approval for the
two persistent cookies that OIG discovered during the review. OIG found no evi-
dence that cookies were used to collect personally identifiable information on the
agency’s public web sites. Further, one of the four web sites that were reviewed had
no privacy statement and therefore no means of advising users of any information
collected on the site. The web manager was not aware that a privacy statement was
required and agreed to post a statement to ensure compliance.




Strong Management Support Needed to
Ensure Broadcasting Board of Governors
Complies with the Government Information
Security Reform Act (01-IT-M-084)

In response to GISRA, OIG performed an independent evaluation of the informa-
tion security program and practices of BBG. Specific objectives of our review were
to identify BBG’s policies and procedures for securing information on its informa-
tion systems and to determine whether BBG is effectively implementing require-
ments of GISRA.

    OIG met with officials from organizations throughout BBG including the
International Broadcasting Bureau (IBB), Voice of America, and Worldnet Television
and Film Service. We spoke with officials from the Office of Cuba Broadcasting, but
did not conduct any field work at its headquarters in Miami. The Office of Cuba
Broadcasting had become aware of GISRA requirements only in June 2001 and
requested time to develop and implement compliance measures. Also, OIG did not
conduct detailed review work with BBG’s grantee organizations, Radio Free Europe/
Radio Liberty, and Radio Free Asia. They are private non-profit organizations that
own and operate their own information technology systems. In addition to detailed
discussions with appropriate BBG management and staff, we developed and used a
questionnaire based on the National Institute of Standards and Technology’s Self-
Assessment Guide for Information and Technology Systems. We collected other pertinent
supporting information security documentation as appropriate. We did not review
technical controls during this evaluation because BBG was still developing its security
program.

   When OIG began its review in February 2001, BBG did not have a documented,
agency-wide information security program as required by GISRA and had not



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   75 .
        documented security level requirements for its systems. Upon initiating this evalua-
        tion in February 2001, OIG found that BBG had not developed written policies and
        procedures for establishing commonly used information security controls. OIG
        found that BBG primarily uses commercial off-the-shelf software and identified 49
        systems that it was operating at the time of our evaluation. Using questions taken
        from the National Institute of Standards and Technology’s Self-Assessment Guide, OIG
        held discussions with several system owners and found that they were not using
        standard information security controls while managing their systems and that system
        security level determinations had not been documented. Furthermore, other key
        items that would support a stronger risk management approach to information
        security as called for under GISRA were missing. They include:
          • risk assessments;
          • contingency plans;
          • vulnerability testing;
          • an information security training program; and
          • procedures for detecting, reporting, and responding to security incidents.
             Since February 2001, BBG has appointed a Chief Information Officer (CIO)
        and has made some progress toward establishing an information security program.
        For example, in July 2001, the CIO issued a draft paper outlining a framework for
        the BBG Information Security Program, including a discussion of roles and respon-
        sibilities, training requirements, and the agency’s enterprise architecture. In addition,
        five BBG program offices—Computing Services, Engineering and Technical Ser-
        vices, Voice of America Broadcast Operations, the Office of Cuba Broadcasting, and
        the Office of Internet Development—are developing security plans to protect
        BBG’s 18 mission-critical and 31 non-mission-critical systems that were identified
        during our evaluation. The development of these security plans, according to BBG
        officials, is geared toward meeting GISRA requirements. Overall, these efforts
        suggest that BBG is making steady progress toward establishing an effective infor-
        mation security program throughout the agency. OIG is encouraged by these steps
        to comply with GISRA and recommends that BBG complete work on developing its
        information security program by the end of October 2001 and include a dis-cussion
        of these efforts in its remediation plan, which is due to the Office of Management
        and Budget on October 31, 2001.




76 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
Review of the Broadcasting Board of Governors
Audience Research Program (01-FP-R-042)


OIG reviewed the audience research operations of the Broadcasting Board of
Governors (BBG). The objectives of the review were to determine BBG’s progress
in developing a reliable research capability, evaluate how BBG gathers and uses the
research, and analyze the related contracting practices. In addition, OIG evaluated
the performance data related to audience research included in BBG’s FY 1999
performance report proposed in response to GPRA.

    OIG found that BBG had made significant progress in developing a reliable
audience research capability. For example, it completed its first two language service
reviews with research playing a significant role, developed an audience research
manual, and significantly increased audience research funding.

    However, OIG found that BBG could further improve its program and recom-
mended that it (1) establish procedures to ensure the language priorities established
by the Board are considered in allocating audience research funds; (2) ensure that its
broadcast entities document the use of research recommendations in making broad-
cast and programming decisions; (3) require that its broadcast entities work with
Board staff to improve the agency’s GPRA planning and reporting process; and (4)
ensure that the audience research contracting practices at Radio Free       Europe/
Radio Liberty and Radio Free Asia adhere to Office of Management and Budget
guidance.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   77 .
        Investigations


        Management Implication Report

        An OIG investigation determined that members of BBG served concurrently on the
        board of directors of a nongovernmental organization that does contract work for
        BBG, creating an apparent conflict of interest. The investigation determined that
        the concurrent service was a past practice and was not currently ongoing. OIG
        issued a Management Implication Report recommending that future BBG governors
        be restricted from serving on the board of directors of the nongovernmental organi-
        zation. (01-055)




78 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
              APPENDIX 1: INVESTIGATIVE ACTIVITIES

                           Workload

                           Cases pending 3/31/01                                    1
                           New cases opened                                         2
                           Cases closed                                             2
                           Cases pending 9/30/01                                    1


                           Total Judicial Actions                                  3

                           Prosecutive Referral                                    2
                           Prosecutive Declination                                 1

                           Total Administrative Actions                            0




               The statistics and narrative case descriptions of investigative activities appearing
               in this Semiannual Report to the Congress are the result of reports received from
               prosecutive and administrative authorities. The final actions may be changed at a
               later date by individual use of administrative and judicial appeals processes.




                         APPENDIX 2: REPORTS ISSUED


01-IT-M-039     More Guidance and Oversight Can Improve Broadcasting Board of                         Governors’
                Web Site Privacy                                                                        6/01
01-SIO-R-041    Radio Free Europe/Radio Liberty, Prague, Czech Republic                                 6/01
01-IT-M-084     Strong Management Support Needed to Ensure Broadcasting Board of                      Governors
                Complies With the Government Information Security Reform Act                            9/01
01-FP-R-042     Review of the Broadcasting Board of Governors’ Audience Research Program                 6/01
01-FP-M-070     Inspection of Sao Tome Transmitting Station




    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001                79 .
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES

                                               Table I
                               INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                       WITH QUESTIONED COSTS
                                                          Number            (Dollars in Thousands)
                                                         of Reports Questioned Costs Unsupported Costs

   A.   For which no management decision has been made
        by the commencement of the reporting period           0                 0               0

   B.   Which were issued during the reporting period         0                 0               0

        Subtotals (A + B)                                     0                 0               0

   C.   For which a management decision was made
        during the reporting period                           0                 0               0

        – based on formal administrative or
           judicial appeal
        (i) dollar value of disallowed costs                  0                 0               0
        (ii) dollar value of costs not disallowed             0                 0               0


   D.   For which no management decision has been
        made by the end of the reporting period               0                 0               0

        Reports for which no management decision
        was made within 6 months of issuance                  0                 0               0



                                          Table II
                           INSPECTOR GENERAL ISSUED AUDIT REPORTS
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                    Number            Dollar Value
                                                                   of Reports       (in thousands)

   A.   For which no management decision has been made
        by the commencement of the reporting period                    0                   0
   B.   Which were issued during the reporting period                  0                   0

        Subtotals (A + B)                                              0                   0

   C.   For which a management decision was made
        during the reporting period                                    0                   0

        (i) dollar value of recommendations that were
            agreed to by management                                    0                   0
            – based on proposed management action
            – based on proposed legislative action

        (ii) dollar value of recommendations that were
             not agreed to by management                               0                   0

   D.   For which no management decision has been
        made by the end of the reporting period                        0                   0

        Reports for which no management decision
        was made within 6 months of issuance                           0                   0



80 .       Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
                      LIST OF ABBREVIATIONS


            ARI       Andean Regional Initiative
           ATA        Anti-Terrorism Assistance
           BBG        Broadcasting Board of Governors
            CIO       Chief Information Officer
            CIP       Critical Infrastructure Protection
             DS       Diplomatic Security
           EAP        Emergency Action Plan
           ECA        Bureau of Educational and Cultural Affairs
             EU       European Union
         FSRDF        Foreign Service Retirement and Disability Fund
          FVAP        Federal Voter Assistance Program
           GAO        General Accounting Office
         GISRA        Government Information Security Reform Act
          GPRA        Government Performance and Results Act
         INCSF        Iraqi National Congress Support Foundation
            INL       Bureau of International Narcotics and Law Enforcement
                      Affairs
           IRM        Information Resource Management
          MED         Office of Medical Services
          MPP         Mission Performance Plan
          NEA         Bureau of Near Eastern Affairs
          NGO         Nongovernmental organizations
         OECD         Organization for Economic Cooperation and
                      Development
           OIG        Office of Inspector General
          OWP         Overseas Wireless Program
           SSA        Social Security Administration
         USAID        United States Agency for International Development
          USIA        United States Information Agency
         WPCP         Worldwide Purchase Card Program




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001   81 .
                            INDEX OF REPORTING REQUIREMENTS
                     INSPECTOR GENERAL ACT OF 1978, AS AMENDED



   REQUIREMENT       SUBJECT                                                            PAGE NUMBERS

   Section 4(a)(2)   Review of legislation and regulations                                          13-15
   Section 5(a)(1)   Significant problems, abuses, and deficiencies                          19-52, 73-77
   Section 5(a)(2)   Significant recommendations for corrective action                       19-52, 73-77
   Section 5(a)(3)   Prior significant recommendations unimplemented                                     66
   Section 5(a)(4)   Matters referred to prosecutive authorities                                53-60, 78
   Section 5(a)(5)   Information or assistance refused                                               None
   Section 5(a)(6)   List of reports issued                                                     62-63, 79
   Section 5(a)(7)   Summaries of significant reports                                        19-52, 73-77
   Section 5(a)(8)   Audit reports–questioned costs                                                 64, 80
   Section 5(a)(9)   Audit reports–funds to be put to better use                                    65, 80
   Section 5(a)(10) Prior audit reports unresolved                                                  67-69
   Section 5(a)(11) Significant revised management decisions                                         None
   Section 5(a)(12) Significant management decisions with which OIG disagreed                        None




82 .      Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2001
